<html>
<title> - [H.A.S.C. No. 114-68] U.S. STRATEGY FOR SYRIA AND IRAQ AND ITS IMPLICATIONS FOR THE REGION</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





 
                         [H.A.S.C. No. 114-68]

  U.S. STRATEGY FOR SYRIA AND IRAQ AND ITS IMPLICATIONS FOR THE REGION

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION
                               __________

                              HEARING HELD

                            DECEMBER 1, 2015









[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

97-824                         WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          
















                                     

                                     
                      COMMITTEE ON ARMED SERVICES
                    One Hundred Fourteenth Congress

             WILLIAM M. ``MAC'' THORNBERRY, Texas, Chairman

WALTER B. JONES, North Carolina      ADAM SMITH, Washington
J. RANDY FORBES, Virginia            LORETTA SANCHEZ, California
JEFF MILLER, Florida                 ROBERT A. BRADY, Pennsylvania
JOE WILSON, South Carolina           SUSAN A. DAVIS, California
FRANK A. LoBIONDO, New Jersey        JAMES R. LANGEVIN, Rhode Island
ROB BISHOP, Utah                     RICK LARSEN, Washington
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN KLINE, Minnesota                MADELEINE Z. BORDALLO, Guam
MIKE ROGERS, Alabama                 JOE COURTNEY, Connecticut
TRENT FRANKS, Arizona                NIKI TSONGAS, Massachusetts
BILL SHUSTER, Pennsylvania           JOHN GARAMENDI, California
K. MICHAEL CONAWAY, Texas            HENRY C. ``HANK'' JOHNSON, Jr., 
DOUG LAMBORN, Colorado                   Georgia
ROBERT J. WITTMAN, Virginia          JACKIE SPEIER, California
DUNCAN HUNTER, California            JOAQUIN CASTRO, Texas
JOHN FLEMING, Louisiana              TAMMY DUCKWORTH, Illinois
MIKE COFFMAN, Colorado               SCOTT H. PETERS, California
CHRISTOPHER P. GIBSON, New York      MARC A. VEASEY, Texas
VICKY HARTZLER, Missouri             TULSI GABBARD, Hawaii
JOSEPH J. HECK, Nevada               TIMOTHY J. WALZ, Minnesota
AUSTIN SCOTT, Georgia                BETO O'ROURKE, Texas
MO BROOKS, Alabama                   DONALD NORCROSS, New Jersey
RICHARD B. NUGENT, Florida           RUBEN GALLEGO, Arizona
PAUL COOK, California                MARK TAKAI, Hawaii
JIM BRIDENSTINE, Oklahoma            GWEN GRAHAM, Florida
BRAD R. WENSTRUP, Ohio               BRAD ASHFORD, Nebraska
JACKIE WALORSKI, Indiana             SETH MOULTON, Massachusetts
BRADLEY BYRNE, Alabama               PETE AGUILAR, California
SAM GRAVES, Missouri
RYAN K. ZINKE, Montana
ELISE M. STEFANIK, New York
MARTHA McSALLY, Arizona
STEPHEN KNIGHT, California
THOMAS MacARTHUR, New Jersey
STEVE RUSSELL, Oklahoma

                  Robert L. Simmons II, Staff Director
                 Alex Gallo, Professional Staff Member
                      William S. Johnson, Counsel
                         Britton Burkett, Clerk
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     2
Thornberry, Hon. William M. ``Mac,'' a Representative from Texas, 
  Chairman, Committee on Armed Services..........................     1

                               WITNESSES

Carter, Hon. Ashton B., Secretary of Defense.....................     4
Dunford, Gen Joseph F., Jr., USMC, Chairman of the Joint Chiefs 
  of Staff.......................................................     8

                                APPENDIX

Prepared Statements:

    Carter, Hon. Ashton B........................................    69

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Bridenstine..............................................    79
    Mrs. Davis...................................................    79
    Mr. Forbes...................................................    79
    Mr. Rogers...................................................    79

Questions Submitted by Members Post Hearing:

    Mr. Hunter...................................................    83
    Mr. Johnson..................................................    86
    Mr. Moulton..................................................    84
    Mr. Russell..................................................    85
    Mr. Shuster..................................................    83
    Mr. Walz.....................................................    84
    
    
    
    
    
    
    
  U.S. STRATEGY FOR SYRIA AND IRAQ AND ITS IMPLICATIONS FOR THE REGION

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                         Washington, DC, Tuesday, December 1, 2015.
    The committee met, pursuant to call, at 10:02 a.m., in room 
2118, Rayburn House Office Building, Hon. William M. ``Mac'' 
Thornberry (chairman of the committee) presiding.

  OPENING STATEMENT OF HON. WILLIAM M. ``MAC'' THORNBERRY, A 
    REPRESENTATIVE FROM TEXAS, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The hearing will come to order.
    The committee meets today to hear testimony from the 
Secretary and Chairman on our strategy against ISIS [Islamic 
State of Iraq and Syria] and the implications for the Middle 
East. Today is the first hearing we have had with Secretary 
Carter and Chairman Dunford together in their current roles, 
and I think it is appropriate for it to be on this topic, which 
is foremost in the minds of the American people.
    I want to thank you both for being here and also to take 
this opportunity to thank each of you for your service to the 
country in a variety of roles. It is my view that we are 
fortunate to have you here.
    In all that has been written and said about ISIS since the 
Paris attacks, there seems to be widespread consensus on at 
least three points. One is that ISIS presents a significant 
threat to the United States. Two, the approach we have used to 
degrade and destroy ISIS is inadequate to meet that threat. 
And, three, a different approach, a greater effort is required.
    While in many ways ISIS is more capable than Al Qaeda, it 
is certainly not invincible. Yet when we tie our own hands and 
use half measures against them, it enhances their prestige and 
aids their cause. As Dr. Henry Kissinger wrote 6 weeks ago, 
``The current inconclusive U.S. military effort risks serving 
as a recruitment vehicle for ISIS as having stood up to 
American might.'' And David Ignatius wrote more recently, ``But 
the halfway measures taken by the U.S. thus far have only 
helped the jihadists.''
    The other consequence of such half measures is that it adds 
to the doubts that allies or potential allies have about our 
commitment and about our willingness to see the mission 
through. Hank Crumpton, who led CIA's [Central Intelligence 
Agency's] Afghanistan campaign after 9/11, wrote about ISIS 
earlier this year, ``Many have lost faith in U.S. leadership. 
The perception of U.S. weakness and lack of strategic direction 
dissuades allies from policy and intelligence cooperation.''
    I believe that a greater military effort must be run by the 
military. And I have got to say, Secretary Carter, all three of 
your Obama administration predecessors have complained openly 
about White House aides micromanaging military operations. I 
myself have heard some of these instances from commanders in 
the field, instances that I don't think would have happened at 
any other time in our history.
    If we are going to be serious about ISIS, the President 
needs to assign the military a clear mission and then allow the 
military to carry it out. I believe there should be a four-star 
headquarters in the region that is fully empowered to take the 
steps necessary to degrade ISIS now. Former Under Secretary of 
Defense for Intelligence Mike Vickers made good sense to me 
when he wrote about 10 days ago, quote, ``Whatever we would do 
if ISIL [Islamic State of Iraq and the Levant] made good on its 
threat to attack Washington and New York, we should do it now, 
before the attack occurred.''
    Well, maybe Kissinger, Ignatius, Crumpton, and Vickers are 
all wrong and the President has things contained and well in 
hand, but I don't think so. And we are looking to you two 
gentlemen not to repeat White House talking points, but to give 
us your best professional military judgment on what is required 
to actually degrade and defeat this enemy and protect our 
people.
    Mr. Smith.

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman.
    And thank you, Secretary Carter and General Dunford, for 
being here today to talk about this incredibly important topic. 
And I agree with the chairman, there is no question that ISIS 
is a clear threat that need to be confronted. They are, I think 
without question, the greatest national security threat that we 
face right now. It is important to keep in context that that 
threat is not just ISIS. It was Al Qaeda, now it is ISIS. It is 
part of a broader ideology that we need to confront that we 
have seen spread throughout the Middle East and North Africa 
and South Asia in many different forms, Ansar al-Sharia in 
Libya, Al Shabaab in Somalia, Boko Haram in Nigeria. We need to 
figure out how to confront and defeat that threat. And there is 
no question that ISIS remains a grave threat to Western targets 
as well as to stability in the Middle East.
    That said, I don't think the picture is quite as bleak as 
the chairman portrayed it. In fact, there was just an article 
yesterday about how ISIS is beginning to lose some of their 
supporters because their momentum has been stopped in terms of 
gathering territory. One of the biggest things, selling points 
that they had from the very beginning was, unlike Al Qaeda, 
they held territory, and they were growing at one time in terms 
of the territory they held. So they could recruit people 
saying, we are truly going to build an Islamic state.
    Well, they have not gained any territory; they have lost 
actually a few towns. And the bombing campaign that we have 
committed, and primarily the work of the Kurds, has rolled them 
back in certain places and has undermined that confidence in 
the jihadists that they are in fact just going to roll forward 
and take everything. That is a positive.
    However, the chairman is absolutely correct, it is not 
enough. It is not enough to contain ISIS, because as we have 
seen in Paris, in Beirut, and elsewhere, as long as they exist, 
they can launch attacks. We must put together a clear strategy 
to defeat them.
    And that is the other thing that I will agree with the 
chairman on, perhaps not quite as strongly, but the 
administration does need to be clearer in saying what that 
strategy is and that they are absolutely committed to it. I 
actually think they have a better strategy and a more 
comprehensive strategy than at times they have said. Let us not 
forget that the President said I think less than a year ago, we 
don't yet have a strategy. That is the kind of thing that 
doesn't need to be said. We need a much clearer message about 
what that strategy is.
    But I think we have it, and that strategy is that we are 
going to use our military force, in combination with as many 
allies as possible, to try and help our allies in the region. 
But that is the key point. We could send 50,000 U.S. troops 
into Iraq and Syria and in short order, I am sure, clear out a 
good portion of what is now ISIS. But what we also know from 
experience in Iraq and Afghanistan is if a Western force came 
in and tried to pacify or mollify this part of the world, 
another terrorist organization would grow up in a heartbeat or 
ISIS would reconstitute itself and present itself as the 
alternative to--as the only people defending Muslims against 
Western aggression.
    So I hope we don't overreact, because what we need, the 
only way we win this fight is if we find Sunni allies in the 
region who are willing to lead that fight. That is what we have 
to do.
    And also part of this is removing Assad from power, because 
as long as Assad is in power that is another rallying call for 
ISIS to fight against a brutal dictator who is oppressing their 
people. So that is the trick that we have. ISIS is fighting 
Assad, but we need to defeat both Assad and ISIS.
    And, again, I think this notion that U.S. military might is 
simply going to show up and fix the problem has been disproven 
by what has happened. Understand what gives these groups their 
greatest force. What gives them their greatest force is when 
they can stand up and say, we are defending Islam against 
Western aggression. If all we have is Western aggression, we 
will never win.
    We have to use our force, we have to work with our allies 
in the region, but at the end of the day what we need is Sunni 
allies to carry this fight. And that means that we have to 
continue to put pressure on the Baghdad government to bring 
Sunnis in. I mean, is the biggest thing that created ISIS, was 
Prime Minister Maliki, now Abadi, have both decided to run a 
sectarian Shia government. So the Sunnis may not like ISIS, but 
as between that and being allied with a Shiite Iran-backed 
government, they choose ISIS.
    So that is what I think we need to do. Yes, we need to have 
a clearer strategy, we need to state it more clearly and rally 
our allies. But I hope we don't fall into the trap of thinking 
that U.S. military might is what is going to solve this 
problem. It is a far more complicated problem than that.
    And with that, I look forward to the testimony from the 
witnesses and the questions. I thank the chairman. I yield 
back.
    The Chairman. Thank you.
    Mr. Secretary, Chairman Dunford, again, thank you for being 
here, but more importantly, thank you for the service that you 
are providing the Nation in very difficult jobs in very 
difficult times. And I don't think any of us underestimate the 
challenge that is before you.
    Mr. Secretary, you are recognized.

    STATEMENT OF HON. ASHTON B. CARTER, SECRETARY OF DEFENSE

    Secretary Carter. Thank you very much, Chairman Thornberry, 
Ranking Member Smith, all the members of this committee. Thank 
you for inviting me to discuss, with Chairman Joe Dunford, our 
counter-military strategy and its execution.
    And, Chairman, I agree with you. We do need greater effort. 
We are applying greater effort. I am going to try to describe 
some of the ways that we are doing that.
    And, Mr. Smith, the underlying strategy and its clarity, I 
will try to provide that clarity today.
    Now, ISIL's attacks in Paris, like those they have 
perpetrated elsewhere, were barbaric and they were an assault 
on the civilization we defend. ISIL requires, and it will 
receive, a lasting defeat. The President had directed us to 
intensify and adapt the military campaign before the Paris 
attacks, and we will describe those new actions today.
    We continue to accelerate our efforts in the wake of Paris 
and we are urging others to do the same, because those attacks 
further highlighted the stakes that not just the United States, 
but the world has in this fight.
    As I have discussed with you in the past, the United States 
strategy requires leveraging all of the components of our 
Nation's might to destroy ISIL. Every instrument of national 
power--diplomatic, military, intelligence, law enforcement, 
homeland security, economic, informational--is engaged, and 
every national security agency is contributing to one of the 
strategy's lines of efforts. We are defending the homeland, 
acting to defeat ISIL in its core, its core in Syria and Iraq, 
and taking appropriate action wherever else in the world this 
evil organization metastasizes.
    Now, the Defense Department contributes to nearly all the 
lines of effort, but protecting the homeland is among our 
highest priorities. We are adapting to meet ISIL's threat, 
including assuring the security of Defense Department 
installations and personnel. And just last week I hosted some 
of the top national security and law enforcement leaders at the 
Pentagon to discuss efforts to cut off the flow of foreign 
fighters.
    But we at the Defense Department, of course, are also 
centrally responsible for the military campaign, which will be 
the focus of my statement to this committee. Through our own 
action and those of our coalition partners, the military 
campaign will destroy ISIL's leadership and forces, deprive it 
of resources and safe haven and mobility, all the while we seek 
to identify and then enable motivated local forces on the 
ground to expel ISIL from its territory, hold and govern it, 
and ensure that victory sticks.
    That is the right strategic approach for two principal 
reasons. First, it emphasizes the necessity of capable, 
motivated local forces as the only force that can assure a 
lasting victory. Such forces are hard to find, but they do 
exist, and we are enabling them, and we are constantly looking 
for and finding effective ways to expand doing so, and I will 
describe some of them, but we cannot substitute for such 
forces. And second, this strategic approach sets the conditions 
for a political solution to the civil war in Syria and to 
crippling sectarianism in Iraq, which are the only durable ways 
to prevent a future ISIL-like organization from reemerging. And 
that is why the diplomatic work led by Secretary Kerry and the 
State Department is the first and absolutely critical line of 
effort in our strategy.
    We are gathering momentum on the battlefield in Syria and 
Iraq, and today I will describe how the U.S. is continuing to 
accelerate the military campaign against ISIL and what more we 
are asking of our global partners. While I can't describe 
everything in this unclassified setting, I do want to take a 
few extra minutes this morning to give as much detail as 
possible about the new things we are doing to accelerate ISIL's 
defeat.
    We are at war. We are using the might of the finest 
fighting force the world has ever known. Tens of thousands of 
U.S. personnel are operating in the broader Middle East region; 
more are on the way. We have some of our most advanced air and 
naval forces attacking ISIL. U.S. troops are advising and 
assisting ground operations in Syria and Iraq. I will briefly 
describe some of these efforts and how we are accelerating 
them.
    First, in northern Syria, local forces, with our support, 
are fighting along the Mara line, engaging ISIL in the last 
remaining pocket of access into Turkey. Meanwhile, a coalition 
of Syrian Arabs that we helped equip in northeastern Syria, 
with statutory authorizations and funds provided by Congress, 
for which we are grateful, are fighting alongside Kurdish 
forces and have recaptured important terrain, most recently 
pushing ISIL out of the town of Al-Hawl and at least 900 square 
kilometers of surrounding territory. They are now focused on 
moving south to isolate ISIL's nominal capital of Raqqa, with 
the ultimate objective of collapsing its control over that 
city.
    This momentum on the ground in northern Syria has been 
enabled by increased coalition air strikes as well as support 
on the ground. In early November, we deployed additional strike 
aircraft to Incirlik Air Base in Turkey. These and other 
aircraft in the region, combined with improved intelligence, 
allowed us in November to significantly increase our air 
strikes against ISIL to the highest level since the start of 
operations in August of 2014.
    To build on that momentum, we are sending, on President 
Obama's orders and the Chairman's and my advice, special 
operations forces [SOF] personnel to Syria to support the fight 
against ISIL. American special operators bring a unique suite 
of capabilities that make them force multipliers. They will 
help us garner valuable ground intelligence, further enhance 
our air campaign, and above all, enable local forces that can 
regain and then hold territory occupied by ISIL. Where we find 
further opportunity to leverage such capability we are prepared 
to expand it.
    Next, in the south of Syria we are also taking advantage of 
opportunities to open a southern front on ISIL by enabling 
fighters, trained and equipped by us and other coalition 
partners, to conduct strikes inside Syria. We are also 
enhancing the border control and defenses of a key ally, 
Jordan, with additional military assets and assistance.
    In northern Iraq, Peshmerga units, with the help of U.S. 
air power and advisers, have retaken the town of Sinjar, 
cutting the main line of communication between Raqqa and Mosul, 
the two largest cities under ISIL's control. To move people and 
supplies, ISIL must now rely on back roads, where we locate and 
destroy them.
    Elsewhere in Iraq, we have about 3,500 troops at 6 
locations in Iraq in support of Iraqi Security Forces, the ISF. 
There, we have been providing increased lethal fire and 
augmenting the existing training, advising, and assisting 
program, and we are prepared to do more as Iraq shows 
capability and motivation in the counter-ISIL fight and in 
resolving its political divisions.
    Now, the progress in the Sunni portions of Iraq, as 
mentioned by Mr. Smith, as the campaign to recapture Ramadi 
shows, has been slow, much to our and Prime Minister Abadi's 
frustration. Despite his efforts, sectarian politics and 
Iranian influence have made building a multisectarian Iraqi 
Security Force difficult, with some notable exceptions, such as 
the effective U.S.-trained counterterrorism [CT] forces. We 
continue to offer additional U.S. support of all kinds and urge 
Baghdad to enroll, train, arm, and pay Sunni Arab fighters, as 
well as local Sunni Arab police forces, to hold territory 
recaptured from ISIL.
    All these efforts, from northern Syria through Iraq, have 
shrunk the ISIL-controlled territory in both. Importantly, we 
now have an opportunity to divide ISIL's presence in Iraq from 
that in Syria. This could be important, because while both 
countries are plagued by ISIL, each, as I said earlier, has 
different political pathologies that provide the opportunity 
for extremism, and they ultimately require different kinds of 
political progress to ensure lasting victory.
    Next, in full coordination with the Government of Iraq, we 
are deploying a specialized expeditionary targeting force to 
assist Iraqi and Kurdish Peshmerga forces and put even more 
pressure on ISIL. These special operators will over time be 
able to conduct raids, free hostages, gather intelligence, and 
capture ISIL leaders. This force will also be in a position to 
conduct unilateral operations in Syria. That creates a virtuous 
cycle of better intelligence, which generates more targets, 
more raids, more momentum. The raids in Iraq will be done at 
the invitation of the Iraqi Government and focused on defending 
its borders and building the ISF's own capability.
    Next, we are also significantly expanding U.S. attacks on 
ISIL's infrastructure and sources of revenue, particularly its 
oil revenue. Over the past several weeks, because of improved 
intelligence and understanding of ISIL's financial operations, 
we have intensified the air campaign against ISIL's war-
sustaining oil enterprise, a critical pillar of ISIL's 
financial infrastructure. In addition to destroying fixed 
facilities, like wells and processing facilities, we have 
destroyed nearly 400 of ISIL's oil tanker trucks, reducing a 
major source of its daily revenues. There is more to come, too.
    And we are improving our capability to eliminate ISIL's 
leadership by conducting raids using the expeditionary target 
force I discussed a moment ago and also targeted air strikes. 
Since I last appeared before this committee in June, we have 
removed some key ISIL figures from the battlefield: Hajji 
Mutaz, ISIL's second in command; Junaid Hussein, a key external 
operative actively plotting against our service members; Jihadi 
John, an ISIL executioner; and Abu Nabil, ISIL's leader in 
Libya. Like previous actions, these strikes serve notice to 
ISIL that no target is beyond our reach.
    Finally, even as we work to defeat ISIL in Syria and Iraq, 
where its parent tumor has grown, we also recognize ISIL has 
metastasized elsewhere. The threat posed by ISIL and groups 
like it can span regions in our own combatant commands. That is 
why the Defense Department is organizing a new way to leverage 
infrastructure we have already established in Afghanistan, the 
Levant, East Africa, and southern Europe into a unified 
capability to counter transnational and transregional threats 
like ISIL. An example of this network in action was our recent 
strike on Abu Nabil, where assets from several locations 
converged to successfully kill this ISIL leader in Libya.
    As that strike shows, there is a lot of potential here, but 
to do more, we need to be creative and to consider changes to 
how the Defense Department works and is structured. This could 
be an important focus of any new Goldwater-Nichols-type 
reforms, which I know this committee and particularly Chairman 
Thornberry is exploring. I welcome this timely review and look 
forward to working with you on it as we complete our own 
ongoing reform initiatives in the Department.
    These are eight areas, just eight, of the adaptations we 
have made over the past 6 weeks to accelerate this campaign, 
and we have seen momentum build.
    Chairman Dunford, if I can compliment him for a moment, has 
been a tremendous source of actionable ideas. We have also seen 
real ingenuity from our team at CENTCOM [Central Command] and 
many of the other combatant commands involved in this fight. 
And President Obama is committed to doing what it takes, as 
opportunities arise, as we see what works, as the enemy adapts, 
and until ISIL is defeated in a lasting way.
    As I just explained, we are constantly looking to do more 
in this fight, but the world must do the same. The 
international community, including our allies and partners, has 
to step up before another attack like Paris. France has been 
galvanized by the attacks on its capital and the French have 
intensified their role. Britain is debating expanded air 
strikes. Italy has made important contributions in Iraq. And 
Germany is making additional contributions.
    But we all, let me repeat, all must do more. Turkey must do 
more to control its often porous border. Saudi Arabia and the 
Gulf states joined the air campaign in the early days, but have 
since been preoccupied by the conflict in Yemen. Meanwhile, 
Russia, which is publicly committed to defeating ISIL, has 
instead largely attacked opposition forces, not ISIL. It is 
time for Russia to focus on the right side of this fight.
    American leadership is essential, but the more 
contributions we receive from other nations, the greater combat 
power we can achieve using our own force. Just as importantly, 
we also need to leverage our allies' and partners' 
relationships and capabilities to effectively work with Syrians 
and Iraqis, who in the end must expel ISIL and restore 
effective governance in those countries.
    The President, Secretary Kerry, and I have spoken to many 
of our counterparts, and the Chairman has as well, and we are 
encouraging them to provide additional strike and support 
aircraft, special operations personnel, deeper and more 
effective intelligence sharing, additional train, advise, and 
assist personnel and resources, combat search and rescue 
capabilities, combat support and combat service support, base 
security forces, and additional economic aid and humanitarian 
assistance.
    As I conclude, I want to commend this committee on last 
month's budget deal, which is the kind of deal I called for 
back in March before this committee. It was a consequential 
agreement for the Nation's security, and we are grateful for 
it. Thank you.
    [The prepared statement of Secretary Carter can be found in 
the Appendix on page 69.]
    The Chairman. Thank you.
    General Dunford.

STATEMENT OF GEN JOSEPH F. DUNFORD, JR., USMC, CHAIRMAN OF THE 
                     JOINT CHIEFS OF STAFF

    General Dunford. Chairman Thornberry, Ranking Member Smith, 
distinguished members of the committee, thank you for the 
opportunity to appear before you today to address the military 
dimension of our counter-ISIL strategy.
    Secretary Carter just provided a brief campaign update and 
an overview of our strategic approach. Before taking your 
questions, I would like to share my perspective on the 
fundamentals of our counter-ISIL campaign in Iraq and Syria and 
what I believe you should expect as we move forward.
    ISIL's primary sources of strength are its claim to be a 
caliphate, its narrative, and its manpower. To be successful, 
the coalition's military campaign must reduce ISIL's 
territorial control, undermine its brand and aura of 
invincibility, and destroy its warfighting capability.
    There are two critical elements in a military campaign to 
achieve those ends. The first is to conduct strikes against 
ISIL targets. The strikes are intended to kill leadership and 
fighters, interdict their lines of communication, and deny them 
their sources of revenue.
    The second critical element in the military campaign is to 
develop and support effective partners on the ground to seize 
and secure ISIL-held terrain. The basic framework for the 
campaign is the same for Iraq and Syria, but the conditions on 
the ground present unique challenges and opportunities. Without 
a partner on the ground, Syria has clearly presented the most 
difficult challenge. Success in Syria requires working with our 
Turkish partners to secure the northern border of Syria; 
enabled, vetted Syrian opposition forces that are willing to 
fight ISIL; and conducting strikes to attack core ISIL's 
command and control and sources of revenue.
    In Iraq we have a partner, and success requires supporting 
the development of Iraqi and Kurdish security forces in 
enabling their operations with intelligence, advisers, 
logistics, and combined armed support.
    Having quickly outlined what we must do in the military 
campaign, let me provide my initial assessment of how we are 
doing. As with any campaign, we are continuously examining ways 
to enhance the effectiveness of our operations. Many weeks ago, 
even before I became the Chairman, the leadership across the 
Department recognized that we needed to increase pressure on 
ISIL by improving the effectiveness of our strikes and 
accelerating our efforts to development and support effective 
partners on the ground. In short, we were not satisfied that we 
were doing everything possible to defeat the enemy.
    While recognizing that ISIL is a transregional threat 
requiring a broader strategy, our immediate focus was to bear 
down on core ISIL across Iraq and Syria simultaneously. After a 
lot of hard work by commanders and staffs at every level, we 
went to the President in early October with a number of 
recommendations designed to generate momentum in the campaign. 
The President approved our initial recommendations, and we are 
currently in the process of implementing his decisions.
    Secretary Carter provided the details of the initiative in 
his testimony and described where we are starting to see some 
positive developments and where we may see additional progress 
in the days ahead. While very mindful of the complex challenges 
that we face in this campaign, we are encouraged by the recent 
developments in places like Beyji, Sinjar, and Al-Hawl. To me, 
those operations indicate what is possible.
    We also believe we are having a greater effect in our 
strikes against ISIL's leadership and resources. In the days 
ahead, we will be aggressive in looking for ways to reinforce 
success and we will seize every opportunity to increase the 
tempo and the effectiveness of our operations.
    The Secretary and the President have made it clear that 
they expect me to deliver all of the options that may 
contribute to our winning the fight against ISIL. I made a 
commitment to them that I would do that and I will reaffirm 
that commitment to you here this morning.
    In closing, as I complete my initial assessment of the 
campaign, I believe we have started to identify and implement a 
number of initiatives to move the campaign forward. We are not 
satisfied or complacent about where we are, and we won't be 
until ISIL is defeated.
    Thank you again for the opportunity to join you. I look 
forward to your questions.
    The Chairman. Thank you, sir.
    As we move into questions, we need to make the most of the 
limited time we have with the Secretary and General Dunford. So 
just as a warning, we are going to have to be strict on the 
time. If you want to make a 4-minute speech, you are not going 
to get much of an answer. So let's be respectful of the time. 
And I want to instruct the staff to put me on the clock 
starting now.
    Mr. Secretary, I want to go back to the point that Mike 
Vickers made in that article. You know him, worked with him a 
lot in the Obama administration, and he was in the previous 
administration too. His point is whatever we would do if they 
really were successful in attacking New York and Washington we 
should do now before the attack occurs, which makes a lot of 
sense to me. So you outlined eight areas of adaptation, you 
said, of greater effort. Why weren't we doing that before?
    Secretary Carter. The principal reason why we now have 
opportunities we haven't had in the past is twofold, Mr. 
Chairman. The first is the identification of ground forces, 
starting with Kurds in northern Syria, which I mentioned, the 
Syrian Arab Coalition [SAC], Peshmerga and other forces, and 
forces in the south of Syria that are willing to fight ISIL. 
They have been hard to find. We have been looking for them. We 
have identified a number of them.
    By the way, we are looking for more, and we hope that the 
Syrian Arab Coalition, as it rolls south toward Raqqa, is like 
a snowball that continues to gather people who are tired of 
ISIL's rule, who are willing to fight ISIL, and have them join, 
with us enabling them and accompanying them as appropriate, all 
the way down to Raqqa. So that is one ingredient.
    The other ingredient is our intelligence, which was not so 
great at the beginning of this, as you know, because we were 
surprised again and again and again, has improved 
tremendously--and by the way, some of that as a result of 
Secretary Vickers' own work. That has given us opportunities 
both in air strikes and ground operations, like raids and so 
forth, that we didn't otherwise have.
    So those are two of the things that have contributed to our 
being able to do more. And I just want to repeat something that 
Chairman Dunford just said, which is we are looking for and 
finding new opportunities for actionable effort every day. And 
to your core point, and I guess Secretary Vickers' core point, 
I think that is absolutely right. We are doing everything that 
we possibly can to defeat this enemy.
    I described our strategy, I described those efforts. And we 
are doing everything, I should say, that will be effective; 
that we judge will be effective, we are doing now. And I think 
to answer your question directly; we should do everything that 
we can. But Chairman Dunford is also right. I have asked him, 
the President asked me and him, to continue to provide him with 
opportunities, and he, in addition to the two other factors I 
named, has been a great source of actionable ideas, in part 
based upon his terrific service in Afghanistan.
    The Chairman. Well, the defense authorization bill the 
President signed into law last week gives some additional 
opportunities and says basically if you find the Government of 
Iraq is not inclusive, that arms can be provided directly to 
the Kurds, to Sunni tribes, and others. Is that an option that 
you would consider recommending?
    Secretary Carter. We are sending arms directly to the 
Kurds. The mechanism by which that works is that there is 
customs approval by the Iraqi Government--I will come back to 
why we stipulate that--but there is no delay, and a large 
number of arms and other kinds of equipment have reached the 
Iraqi Kurds from us--and by the way, I should say, I think more 
than 12 other countries, a rich source.
    We do that in this way through the Government of Iraq and, 
likewise, much more slowly, and as I said, frustratingly, 
Sunnis, through the Government of Iraq, because we continue to 
believe that supporting a multisectarian approach to governance 
in Iraq is ultimately the most effective approach.
    We have considered the alternatives. I know there are other 
people who have considered the--but it is a considered judgment 
to try to pursue these through the government of Prime Minister 
Abadi. He has indicated a willingness to do that. Baghdad 
politics is complicated, we don't always get what we want, and 
that is particularly the case, as I think Representative Smith 
indicated in, the matter of arming, training, and equipping 
Sunnis.
    The Chairman. Okay. Thank you.
    Mr. Smith.
    Mr. Smith. Just following up on that, I think that is the 
clearest--well, two big problems, two questions. One, what do 
we do in Iraq to find a legitimate fighting force to counter 
ISIL? Because it is not really coming out of Baghdad. I mean, 
what we were able to do during the surge some 7, 8 years ago 
was to get the Sunni tribes to turn on Al Qaeda at the time. 
And it seems to me that is the kind of thing that we are going 
to need to do again, is to reach out to those tribes, take 
advantage of overactions by ISIS groups with Baghdad. But I am 
not getting a clear picture here other than what we have heard 
over and over and over again, which is we hope that at some 
point the Baghdad government actually stops persecuting Sunnis 
and starts including them. But there doesn't seem to be any 
possibility of that, and as the cliche goes, hope is not a 
strategy.
    So what is our strategy for getting Sunnis in Iraq to be 
willing to fight ISIS? What is just the concrete, clear plan to 
make that happen?
    Secretary Carter. The concrete, clear plan has four streams 
by which we are trying to get Sunnis included in the fight 
there, and let me just go through them. The first is through 
the Iraqi Security Forces themselves, which are now, in 
sectarian terms, about 20 percent Sunni. That is one of the 
seeds of this whole problem from the beginning in the collapse 
the Iraqi Security Forces. At our training sites, we have 
trained Iraqi Security Forces, including Sunnis, and they are 
joining the fight, notably in the area of Ramadi. We would like 
more. Our training sites are turning them out every month. That 
is the first stream.
    The second stream is the tribal fighters, as you indicated. 
And they are, first of all, the Popular Mobilization Force 
[PMF], which is a kind of militia-type force, not independent 
of the Iraqi Government. And the Iraqi government, and this is 
where we have a problem, has authorized many more Shia than 
Sunni PMF. We need them to authorize more Sunni PMF, then we 
are prepared to train them. Those are the so-called tribal 
fighters that you indicated.
    Third is the Iraqi Counterterrorism Service, which we have 
trained and is the most effective force in the fight. And 
finally, there is Peshmerga in the north, who have been 
extremely effective.
    And the last thing I will say, and I know I am going on a 
bit, but this is complicated, is we are also working with Sunni 
police. This is important, because, remember, ISIL is in Sunni 
territory, so it is not going to work for Shia forces to 
participate in holding and governing those. We need Sunni 
police forces--and, again, we are working on them too--so that 
when Ramadi is recaptured and ultimately when Mosul is 
recaptured, the peace can be kept there by people who are local 
Sunni and recognizable to local personnel.
    Mr. Smith. Okay. In Syria, the big challenge there is, like 
I said, we are fighting both ISIS and Assad. And I don't think 
we really succeed against ISIS until we remove Assad. And I 
know we are talking with our allies and working on that. Russia 
is a huge problem, because despite what they say, their plan is 
simple, they are going to try to keep Assad no matter what. 
Iran, same story. And that just, you know, perpetuates the 
fight.
    What is the hope and the plan for getting us--because I 
think the key here is to get Russia and Iran to realize that 
Assad is not going to be able to protect their interests. I 
mean, he can't right now, because he can't control his country. 
How do we get to the point where we get a replacement for Assad 
to sort of take that wind out of ISIS' sails and present a more 
representative coalition government?
    Secretary Carter. Well, you are right, a political 
transition in Syria is essential to ultimately resolving the 
civil war there. It is the civil war that fuels ISIL, that 
fuels al-Nusra, that fuels all this extremism, it has been the 
civil war there. And there is a political transition in which 
moderate opposition and some of the structures of the Syrian 
Government, not Bashar Assad, but constitute a new Government 
of Syria that can restore some decency and some governance to 
the territory of Syria. That is the transition we are looking 
for.
    Now, you ask about the Russians. The Russians have a lot of 
influence with Assad. They are using it in the wrong way.
    Mr. Smith. Yes.
    Secretary Carter. And I have said this repeatedly, the 
Russians are wrongheaded in their strategy. They are going at 
it backwards. They had said they were going to go in to fight 
ISIL and promote a political transition. They have backed Assad 
and targeted people who are part of the opposition that needs 
to be part of Syria's future. So they are off on the wrong 
foot. And for us to associate ourselves with what they are 
doing, they would have to get on the wrong foot--the right 
foot, rather.
    Mr. Smith. Thank you.
    The Chairman. Mr. Jones.
    Mr. Jones. Mr. Chairman, thank you.
    And, Mr. Secretary, General Dunford, thank you so much for 
being here today, your leadership.
    I listened to your testimony, I have read in the papers, 
and we have had classified briefings. You all have got an 
unbelievable complex task in behalf of the American people, and 
certainly our military, thank you.
    We, a few of us, back when Mr. Boehner was the Speaker, 
asked for a debate on the floor of the House for a new AUMF, 
Authorization [for Use] of Military Force. In fact, while he 
was still Speaker of the House, he related to the President 
that you need to send us a new AUMF, which President Obama did 
in February of this year, 2015.
    Since becoming the new Speaker of the House, 22 Republicans 
and Democrats wrote to Mr. Ryan, and I just want to read one 
sentence and then I am going to get to my question, and we 
wrote this on November 6th. ``Taken all together, these 
represent a significant escalation of United States military 
operations in the region and place U.S. military personnel on 
the front lines of combat operation.'' We hear from the Senate 
that they say we need to put boots on the ground. We continue 
to not meet our constitutional responsibility.
    And before I get to the question, I want to remind the 
American people what James Madison said: The power to declare 
war, including the power of judging the causes of war, is fully 
and exclusively vested in the legislature, not the executive 
branch, but the legislature.
    I would like to ask you and General Dunford in this 
undertaking of trying to defeat this evil group known as ISIL, 
would it help your cause if the Congress met its constitutional 
responsibility of debating a new AUMF? Would it give strength 
to what you are trying to do, especially with these other 
countries who are our allies? Would it help you in this fight 
to defeat ISIL if the Congress would meet its constitutional 
responsibility? And I would appreciate a statement from each 
one of you. Thank you.
    Secretary Carter. Okay. Well, I will go first. The 
President has submitted an AUMF. I looked at it carefully. This 
was some months ago. I testified about it, and I said I asked 
myself two questions. The first was whether the AUMF as the 
President proposed it would give us the authority to conduct 
the campaign that is necessary to defeat ISIL. And without 
going into the details, my answer to that was yes, the one he 
submitted did, not every one that everyone else has proposed 
would. That one did.
    But the second thing I asked myself was, would this show to 
our troops that their country is behind them? I think they know 
we are behind them. I think they know you are behind them. 
Would this show that the country was behind them in their 
effort? I think they deserve to know that, and for that reason, 
I think it is desirable to have an AUMF.
    The only thing I would say is the lawyers tell me that we 
don't technically need one, so I will just add that. We can 
conduct what we need to do within the law. But I think it would 
be helpful, principally because I think you can't do enough to 
show the troops that we are behind them and that this is a big 
deal and it is serious and the country is behind them.
    Chairman.
    General Dunford. Sir, I have a similar answer. It is my 
understanding that we currently have all the authorities that 
we need to prosecute the campaign against ISIL, but I 
absolutely believe that a clear and unequivocal statement of 
support for the men and women that are prosecuting the campaign 
and our allies from their elected officials would be absolutely 
helpful.
    Mr. Jones. Mr. Chairman, since I took all of my time less, 
I want you to know I can do it under 5 minutes, so therefore, I 
yield back 51 seconds. Thank you.
    The Chairman. Thanks for being a good example.
    Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman.
    And thank you, gentlemen, once again for being before us. I 
had several questions, some of which have already been 
answered, but let me add a couple and see what you are thinking 
of.
    You said that we are now arming the Kurds. The last time I 
talked to [President of Iraqi Kurdistan Masoud] Barzani he 
suggested that they needed heavier duty weapons versus light 
arms. And so my question, my first question would be, what are 
we arming them with? I mean, is it really for the battlefield 
that they find?
    Secondly, I would like you to address this whole issue with 
respect to the Iraqi Army and the inability for us to really 
get it integrated or for Iraq's government to get it 
integrated. I remember back in--under the constitution and 
under the deal, the whole issue of, for example, having a vote 
on the Kurd area being an independent entity, for example. That 
was something that I continued to ask our military leaders at 
the time who were overseeing Iraq, and the reality was they 
kept saying that is the hardest part, that is the hardest part, 
we are going to get to it. We never got to it, and we left. So 
now we see the fruits of that in the sense that we still are 
not able to have a military or police force that is very 
integrated. So what do we do about that?
    So we have been taking back territory in Iraq, and one of 
the issues that we had is we have--I mean, it always takes 
additional--we need to leave troops there or we need to leave 
somebody there in order to hold onto it, otherwise we end up 
losing that territory. So what is our strategy to do that?
    And the recruitment effort, I would like, and I am sure 
that it would be not within the public realm, but I would love 
to get a brief on the cyber issues and how we are countering 
the recruitment effort with respect to ISIS, ISIL, whatever you 
want to call them these days, from a global perspective, but in 
particular are we doing anything that you can talk about in 
this setting with respect to the recruitment effort in the 
region itself?
    And lastly, DIME, diplomacy, intelligence, military, 
economic, you know, it is not just military that we need here. 
So, Secretary, if you could speak a little to what are some of 
the other efforts that we are doing to counteract what is 
really something we need to eliminate, which is ISIS.
    Thank you.
    Secretary Carter. Congresswoman Sanchez, I will touch on a 
few of the points and ask the Chairman, especially with respect 
to arming the Kurds, if you don't mind, Mr. Chairman, and 
generally the Iraqi Security Forces.
    You talk about DIME. Absolutely it is essential that we 
recognize that even though we, I believe this is absolutely 
true, are the center of the campaign, because there must be a 
military defeat of ISIL, and I also believe that Iraq and 
Syria, since it is the heart of ISIL, we have to defeat it 
there.
    That said, this is a global fight, it is a multidimensional 
fight, it is in the intelligence sphere, it is in the homeland 
security sphere, it is in the law enforcement sphere. And I 
won't go into much more to say about that except that I have 
begun to convene, with Secretary Kerry, and I appreciate his 
cooperation in this regard, all of the agencies and going 
through what we are all doing and making sure the right hand 
knows what the left is. So, for example, in cyber, you are 
right, I can't talk about it here, I am happy to come give you 
a classified briefing, but we are linked up, and that is very 
important, the FBI [Federal Bureau of Investigation], Jim 
Comey, Homeland Security, the intelligence community, and our 
DOD [Department of Defense] people.
    Last thing I will say is you ask have we thought about a 
hold force. The necessity for a hold force is at the root of 
our strategy. Our strategy is to find, identify, and enable 
forces that can not only take territory, but hold territory, 
because we know from the last 14 years that that is the tricky 
part. The hard part about getting victory to stick is to find 
people who can hold territory and govern it decently so that 
the likes of ISIL don't come back. And as I said, they are hard 
to find. They do exist, but they are hard to find, and we are 
going to try to make a snowball and get more.
    Chairman.
    General Dunford. Congresswoman, with regard to the Kurds, 
the Kurds have, as you know, you have been there many times, a 
full range of heavy weapons, heavy vehicles, and our assessment 
is they have the capability to take the fight to ISIL, and, in 
fact, their recent success in Sinjar demonstrates that.
    I was over in October and I did speak to President Barzani. 
He identified some additional support that he wanted, some 
specific ammunition types that he felt like he didn't have in 
sufficient quantities, and we were working immediately to 
address that shortfall.
    So my assessment is they have the military capability to do 
what must be done, and we are additionally providing aviation 
support and other combined arms capabilities.
    The Chairman. Mr. Chairman, General, if you would like to 
amplify, please feel free, but try to keep us close to on time.
    Mr. Forbes.
    Mr. Forbes. General Dunford, you heard the chairman's 
admonishment of staying within 5 minutes, so I am going to ask 
you to have your answers as succinct as possible, and if you 
want to elaborate, you can do that in writing.
    You heard the Secretary of Defense today say both in 
writing and verbally that we are at war. Who declared that war?
    General Dunford. Representative Forbes, I think what the 
Secretary was saying, because we have discussed this, is we 
view the fight against ISIL as a threat to the United States 
and we are mobilizing all of the military capabilities that are 
necessary----
    Mr. Forbes. Who would have actually made that declaration? 
Is that something you would make, the Secretary would make----
    General Dunford. If it was a technical declaration of war, 
it would be the Congress.
    Mr. Forbes. But has that declaration been made?
    General Dunford. No, it has not.
    Mr. Forbes. So then how does the Secretary say we are at 
war?
    Secretary Carter. Well, why doesn't the Secretary say for 
himself?
    Mr. Forbes. I understand, but I only have 5 minutes.
    Secretary Carter. Well, I am just going to tell you, by 
doing that I am not----
    Mr. Forbes. Chairman, I would ask the Secretary, if he 
wants to elaborate, he can do it in writing. He is taking my 5 
minutes.
    General Dunford, can you tell me, as the Chairman of the 
Joint Chiefs, if you know?
    General Dunford. We are technically not at war, 
Representative Forbes.
    Mr. Forbes. So if we are effectively not at war, let me ask 
you this----
    General Dunford. A declared war.
    Mr. Forbes [continuing]. Have we currently contained ISIL?
    General Dunford. We have not contained ISIL----
    Mr. Forbes. Have they been contained at any time since 
2010?
    General Dunford. Tactically in areas they have been. 
Strategically they have spread since 2010.
    Mr. Forbes. Can you ask me if our current strategy, in your 
best personal and professional military judgment, that we have 
currently implemented, do we have a strategy that will defeat 
and destroy ISIL?
    General Dunford. I think the right components of a strategy 
are in place, Representative Forbes.
    Mr. Forbes. Is that the strategy that was recommended by 
the Joint Chiefs?
    General Dunford. The current strategy, and particularly the 
military dimension of the strategy, is the strategy that was 
recommended by the Joint Chiefs.
    Mr. Forbes. Do you have any knowledge of whether your 
predecessor was ever consulted from 2010 until he left office 
regarding the appropriate strategy for dealing with ISIL in his 
best personal and professional military judgment or the best 
personal military judgment of the Joint Chiefs?
    General Dunford. I am confident that he was routinely 
consulted.
    Mr. Forbes. Do you have any knowledge as to whether he was 
consulted?
    General Dunford. I do. I was a member of the Joint Chiefs 
at the same time.
    Mr. Forbes. Was the strategies implemented since 2010 the 
strategies that were recommended by the Joint Chiefs?
    General Dunford. I can't speak to all the way back to 2010, 
Congressman Forbes.
    Mr. Forbes. How long were you on the Joint Chiefs?
    General Dunford. Eleven months before assuming my current 
position.
    Mr. Forbes. All right. During that 11 months, were the 
strategies implemented at that time the strategies that were 
recommended by the Joint Chiefs?
    General Dunford. We didn't make a recommendation on the 
strategy during those 11 months. The only recommendations we 
made happened subsequent to that time, which is when I was the 
Chairman.
    Mr. Forbes. And, General, in your best personal and 
professional military judgment, do you believe our strategies 
since 2010 were the appropriate military strategies to defeat 
and destroy ISIL?
    General Dunford. Congressman Forbes, I think we have the 
right elements of the strategy in place today.
    Mr. Forbes. Did we have them since 2010?
    General Dunford. I don't believe the campaign was fully 
resourced since 2010.
    Mr. Forbes. Good.
    Mr. Chairman, with that, I yield back.
    Thank you, General. And feel free to elaborate on any of 
that you want to in writing.
    [The information referred to can be found in the Appendix 
on page 79.]
    The Chairman. Mr. Secretary, if there is something you 
want----
    Mr. Forbes. Yes.
    The Chairman [continuing].to say about the comments about--
--
    Secretary Carter. No, I just want to be candid. I am not 
using this in some technical sense. But this is serious 
business, and so I believe----
    Mr. Forbes. And Mr. Secretary----
    Secretary Carter [continuing]. That is what I mean by war. 
It feels like that to our people who are engaged in it and it 
has that kind of gravity. So it is not a technical thing, it is 
a descriptive.
    Mr. Forbes. Mr. Chairman, since I have 60 seconds left, in 
all due respect to the Secretary, the word ``war'' is not just 
some light term. When we use ``war'' it is a technical word and 
it needs to be used very, very carefully, I think, whether we 
use it in this committee or use it elsewhere. And with that, I 
yield back.
    The Chairman. Okay. Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    And thank you to both of you, of course, for being here and 
the challenges that you are facing.
    I wanted to go back to the AUMF for a second, because I 
know that you have said that you have whatever you need 
basically in terms of the authorities, and yet I have an 
understanding that in Afghanistan, for example, that in fact we 
have had some inability to act preemptively. Would that be the 
case in any way?
    Secretary Carter. Since General Dunford was our commander 
there, I think he is probably in the best position to--I will 
let him answer that.
    General Dunford. Congresswoman Davis, Afghanistan is a 
declared area of hostilities, and certainly as the commander 
there I didn't have any restrictions on my ability to act when 
there was a threat to U.S. forces or to the mission.
    Mrs. Davis. And, again, preemptively, that was not a 
problem?
    General Dunford. Absolutely. I mean, if we had actionable 
intelligence that there was a threat to the force or a threat 
to the mission or, frankly, during my time in Afghanistan, a 
threat to Afghan Security Forces, we were authorized to act 
against individuals or groups designated as hostile.
    Mrs. Davis. All right. Thank you. I appreciate that. There 
seemed to be some misunderstanding at some point.
    I also wanted to just go back. You talked about the oil 
infrastructure campaign, and I am wondering whether there was 
some decision not to act as quickly in that regard as perhaps 
we could have while there was--could be considered a longer way 
to do that, and what the impacts of that actually are in terms 
of impact on the pocketbook, of course, of ISIL, on the oil 
trade, and what impact that might have on the future, actually, 
of the region itself, of the Sunni region.
    General Dunford. Congresswoman Davis, I will start with 
that. Back in the spring a detailed analysis was done in 
conjunction with the State Department on the oil infrastructure 
in Syria and Iraq, but in Syria, to identify the critical nodes 
that if targeted would have the greatest impact against the 
revenue stream of ISIL. And so over the course of a couple of 
months that was heavily studied and then brought to Secretary 
Carter and Secretary Kerry about 4 weeks ago.
    We had been striking oil infrastructure, but we were able 
to do it in a much more sophisticated, much more effective way 
subsequent to that study being completed. So that is why you 
have seen a significant increase in the tempo of our strikes 
over the past couple of weeks. We estimate that approximately 
43 percent of the revenue stream that ISIL derives from oil has 
been affected over the past 30 days, and we are continuing now 
to aggressively pursue not only strikes against their oil 
revenue, but also their cement and other industries from which 
they draw their primary funds.
    Mrs. Davis. Anything else? And in terms of the cooperation 
with allies in that regard as well.
    General Dunford. The coalition, we have what is called an 
air tasking order, so the coalition is integrated into that air 
tasking order, they conduct strikes. And the coalition is also 
supporting the strikes that we are conducting against the 
infrastructure.
    Mrs. Davis. Thank you. And I want to shift just quickly. 
What are your concerns about Pakistan's commitment to 
eliminating terrorist organizations?
    Secretary Carter. Well, we hosted Pakistani leaders here in 
Washington, the Chairman and I, of course the President, just 
in recent weeks, and we do press them on the need to fight 
terrorists and to recognize that terrorism is a threat to 
Pakistan as well as to its neighbors, and by the way, I should 
add, to U.S. forces in the region. So we are concerned about 
it, we do press them on that and urge them to recognize what we 
think is true, which is that that is in fact the principal 
threat to the Pakistani state today, comes from terrorist 
organizations within.
    Chairman.
    General Dunford. Congresswoman Davis, I mean, we are never 
satisfied with the level of cooperation and support that we 
have from Pakistan, but we do have open lines of communication. 
As Secretary Carter said, we recently had the Pakistanis here. 
I met with my counterpart, General Raheel, about 10 days ago.
    Mrs. Davis. Yes, and I know. And the chairman also hosted, 
yes.
    General Dunford. And what I do believe is that over the 
past 18 to 24 months in particular the Pakistanis realize that 
violent extremism presents an existential threat to the state 
of Pakistan. And I think as a result, the level of cooperation 
has improved over the past year and a half or two years. It is 
not today, in my assessment, what it needs to be in order for 
us to be effective, and we will continue to work with our 
Pakistani partners to make sure that it gets better.
    Mrs. Davis. Thank you. Are there any tools that we could be 
using, should be using to gain more support?
    The Chairman. If you all would submit those in written 
form, I would appreciate it.
    [The information referred to can be found in the Appendix 
on page 79.]
    The Chairman. Mr. Miller.
    Mr. Miller. Thank you, Mr. Chairman.
    Mr. Secretary, who does it feel like we are at war with?
    Secretary Carter. ISIL and its accompanying. And by the 
way, I wasn't speaking of myself. And I don't use this word 
lightly. I am talking of the troops who are involved in it, 
Congressman. So I think that is who feels that they are at 
war----
    Mr. Miller. I understand, but who is the enemy?
    Secretary Carter. The enemy is ISIL and associated groups, 
extremists.
    Mr. Miller. Have you ever heard any Member of Congress say 
we are at war with Muslims?
    Secretary Carter. No.
    Mr. Miller. Why would the President on foreign soil last 
week say that, quote, ``GOP's rhetoric has become the most 
potent recruitment tool for the militant group.'' Why would he 
say that?
    Secretary Carter. I can't say. I am not familiar with that 
quote by the President. What I do know the President has said 
in the past, which is obviously true, is that we recognize that 
this is not Islam, per se, that stands behind the Islamic 
State, it is a particular group of very radical extremists. And 
that is an important distinction to make. I don't know, I have 
always heard the President make that distinction----
    Mr. Miller. Thank you, Mr. Secretary. I don't even think he 
uses the word ``radical extremists.'' But I think it is pretty 
disingenuous when he makes this into a political football using 
language on foreign soil, that has never been said, for 
political purposes. This committee tries not to do that, and I 
think the President should do the exact same thing.
    He also said that we are gaining--and you did as well--that 
we are gaining back ground that ISIS has taken and that it is 
diminishing their recruiting capacity, implying that it is 
harder for them to recruit fighters.
    So my question is, is it a bigger recruiting tool for 
attacks like Paris or expanding their territory? Because the 
President has said and others have implied that as the area 
shrinks it is harder for them to recruit and they are losing 
fighters.
    Secretary Carter. I will start, and then the Chairman can 
pitch in.
    I do think that attacks like Paris are aimed at and 
probably have some effect on recruiting to the cause people 
worldwide who observed that; young radicals, we have had some 
in our own country who have watched the television, been on the 
Internet. Within Syria and Iraq, recruiting for fighters on the 
ground there, we are trying to dry up that supply of recruits, 
both by making it harder to get into Syria and by destroying 
them when they are there, as well as the ultimate, which is to 
create local forces and a local system of governance that is 
more attractive to people than joining these violent 
extremists.
    Chairman.
    General Dunford. Congressman, I believe that what ISIL is 
trying to do is, again, advance a narrative of inevitable 
success and invincibility. And so I would expect that they will 
do two things: One, continue to grab territory and establish 
the caliphate, and also conduct external operations that will 
incentivize others to join the movement and also attract 
resources to the movement.
    Mr. Miller. General, which do you think they will focus on 
or will they do it simultaneously, regaining territory or 
increasing broader attacks here and other places?
    General Dunford. Congressman, I think they are the ultimate 
opportunists and they will take advantage of all of the above 
whenever the opportunity presents itself.
    Mr. Miller. Thank you. I yield back.
    The Chairman. Mr. Langevin.
    Mr. Langevin. Thank you.
    Mr. Secretary, and General, thank you for your testimony 
today.
    I would like to turn my attention first to your statement, 
page 3, when you talked about the expeditionary targeting 
force. And in particular it says, ``The special operators will 
over time be able to conduct raids, free hostages, gather 
intelligence, and capture ISIL leaders. That creates a virtuous 
cycle of better intelligence, which generates more targets, 
more raids, and more momentum.''
    The line that was in the statement but you didn't mention 
in your oral testimony was that, ``This force will also be in a 
position to conduct unilateral operations into Syria.'' I 
thought that was significant. I just wanted to explore that a 
bit. Exactly what does that mean and what will those--how 
extensive will those types of raids be?
    Secretary Carter. That is true. That is in the statement. 
It is very important. We have obviously conducted such raids 
already. If you remember the raid that led to the killing of 
Abu Sayyaf and the capture of his wife and a young Yazidi woman 
who was being held as a slave, a raid into Syria in which we 
freed 70 prisoners who were going to be executed and actually 
lost an American service member heroically in that action.
    And this is an important capability because it takes 
advantage of what we are good at. We are good at intelligence. 
We are good at mobility. We are good at surprise. We have the 
long reach that no one else has. And it puts everybody on 
notice in Syria that you don't know at night who is going to be 
coming in the window. And that is the sensation that we want 
all of ISIL's leadership and followers to have. So it is an 
important capability.
    Let me ask the Chairman if he wants to elaborate on that.
    General Dunford. I think the one point that you have 
highlighted, Mr. Secretary, is the intelligence piece, and I 
think that is the most important thing.
    Our effectiveness is, obviously, inextricably linked to the 
quality of intelligence we have, and our assessment is that 
this force and the operations this force will conduct will 
provide us additional intelligence that will make our 
operations much more effective. And I think that is what the 
Secretary refers to when he talks about the virtuous cycle.
    Mr. Langevin. So do you expect that these raids, this use 
of special forces going into Syria are going to increase 
exponentially or will the primary focus be within Iraq itself?
    General Dunford. Congressman, our operations will be intel 
driven. The enemy doesn't respect boundaries; neither do we. We 
are fighting a campaign across Iraq and Syria, so we are going 
to go where the enemy is and we are going to conduct operations 
where they most effectively degrade the capabilities of the 
enemy.
    Mr. Langevin. Okay. To what extent are the financial flows 
behind each of the bad actors present in Syria, including ISIL, 
vulnerable to interdiction, and to what extent are we, our 
allies, and our partners disrupting those flows?
    Secretary Carter. I will start. The Chairman spoke of the 
oil infrastructure previously. And as we learn more, we are 
better able to target that part of critical infrastructure like 
oil. The Chairman mentioned cement also, which turns out to be 
a big source of revenue for ISIL. And also that precision 
allows us to strike those parts of the oil infrastructure that 
are fueling the revenues of ISIL.
    We don't wish to destroy the entire oil revenue 
infrastructure of Syria or Iraq because someday those countries 
are going to need to be restored to decent governance, but we 
have to destroy that which fuels ISIL, and we are getting 
better at distinguishing those two. And that better 
intelligence, that better insight is what has allowed us to 
take this next step. And I think it is going to be pretty 
effective. We are looking to do more.
    General Dunford. Just a quick follow-up, Congressman. Just 
to be clear, we do assess today that the majority of the 
revenue that core ISIL has is generated from within Iraq and 
Syria in the ways that the Secretary outlined, the oil industry 
primarily, other industries like cement, and then taxes on 
local people. And some of those taxes are actually taxes on 
resources paid by the Government of Iraq and Syria, so we have 
been able to kind of stop that as well.
    So I do think that we are in a position and have over the 
past several weeks had a pretty significant impact on the 
revenue source of core ISIL.
    Mr. Langevin. So my last question. We have talked this 
morning about nations, surrounding nations in the region being 
more on the same page and going after, targeting ISIL, 
particularly the Sunni states in the area. How do we get them 
to be make this their first priority given the fact that Saudi 
Arabia, for example, their primary concern is Iran and 
expansion?
    Secretary Carter. In view of the time, it is a very 
important question. Why don't I take it for the record and we 
will get back to you in written form. It is a very important 
question.
    Mr. Langevin. Thank you.
    [The information referred to was not available at the time 
of printing.]
    The Chairman. Thank you, sir.
    Mr. Wilson.
    Mr. Wilson. Mr. Secretary and General, thank you for being 
here.
    And General Dunford, I have had the opportunity to 
represent Parris Island, and so I know firsthand how working 
with young people, you transform them into extraordinary people 
with the highest level of fulfillment that they could ever 
achieve. And so it is just awesome what the Marine Corps does.
    I appreciate both of you making recommendations to the 
President to protect American families from further attacks, 
but the President has established a legacy of failure, not 
accepting commonsense proposals to promote peace. This was 
cited last week by The Washington Post editorial page editor 
Fred Hiatt, who courageously confirmed, quote, ``He withdrew 
all U.S. troops from Iraq when experts advised that a residual 
force of 15,000 would help keep a fragile peace. He bombed 
Libya to overthrow its dictator, but opposed a small NATO 
[North Atlantic Treaty Organization] training force that might 
have stabilized the new government.''
    With the President not accepting your recommendations, Mr. 
Secretary, there are plans for the deployment of approximately 
50 special operations soldiers to northern Syria to advise and 
assist Kurdish and Arab fighters fighting ISIS or Daesh. The 
White House press secretary has said these special operations 
forces will be able to assess the situation on the ground and 
help local fighters with operational planning, tactics, and 
logistics.
    Given the complicated sociopolitical divide between the 
Kurds and the local Syrian forces, do you believe that this 
will be successful? And what are the decision points for the 
strategy?
    Secretary Carter. Well, we do believe it has every chance 
of being successful. But this is a transactional relationship 
with these forces wherein we provide them some support, we 
provide them some equipment, and we see how they do. In fact, 
that is what we are doing all over. So far, they have shown a 
willingness to take territory, made good use of our equipment, 
and that is the reason why we are prepared to do more with 
them.
    And by the way, as I said, this I hope will be like a 
snowball. If they do well, we will do more. That will gather 
more fighters into their movement. And, of course, where we 
would like them to go down is to Raqqa and reclaim this so-
called capital of the so-called caliphate. But it is very 
transactional because we have to see how they are doing and 
what their level of motivation and effectiveness is.
    Mr. Wilson. And, of course, it is bipartisan. We want you 
to be successful.
    Mr. Secretary, the basis of this hearing is to determine 
the suitable strategy to deal with ISIS in Iraq and Syria. Most 
recently, we have seen ISIS spread terror beyond the region. 
The President has stated on a number of occasions that ISIS is 
contained. Senator Dianne Feinstein, Democrat of California, 
the ranking member of the Senate Intelligence Committee, has 
expressed a sense of urgency. Recently she said, quote, ``We 
have to be prepared for an ISIS attack on the U.S. homeland. I 
have never been more concerned.''
    Senator Feinstein said, quote, ``I read the intelligence 
faithfully.'' And then she added, ``ISIL is not contained. ISIL 
is expanding.''
    Her comments serve as a direct rebuttal to the President's 
statement, just hours before the mass murders in Paris, we had, 
quote, ``From the start, our goal has been to contain ISIS and 
keep them contained,'' end of quote.
    What specifically does containment of ISIS mean to you? And 
in practical terms, what is DOD doing that it should do to 
contain ISIS?
    Secretary Carter. Well, our strategy is to destroy ISIL in 
Syria and Iraq and anywhere else it arises. And with respect to 
the homeland, while we don't have any credible imminent threats 
that I can relate to you today, fortunately, we do take 
homeland security very seriously. And we particularly take the 
protection of our own personnel seriously for, among other 
reasons, the fact that they were--many of them were singled out 
by these guys like Junaid Hussein, who were trying to recruit 
Americans.
    A few months ago I went to Chattanooga on a Sunday 
afternoon. There was a ceremony for six of our service members 
gunned down by somebody who had been radicalized basically 
online, born and raised in Chattanooga, Tennessee.
    So this is serious business, the violent extremist 
tendencies, and while we need to get its heart in Syria and 
Iraq, we need to recognize that this metastasizes elsewhere and 
protect ourselves and protect our people.
    Mr. Wilson. Thank you very much.
    The Chairman. Ms. Bordallo.
    Ms. Bordallo. Thank you very much, Mr. Chairman.
    Secretary Carter and General Dunford, thank you very much 
for being at the hearing this morning.
    Gentlemen, having just returned last week from a 
congressional trip to Afghanistan, Egypt, and Saudi Arabia, 
with our mission being--our main mission being the influence of 
ISIL in this region, I came back--and this is a personal 
observation--with the idea that we have to step up or 
accelerate our strategies, with the assistance of our allies, 
of course. Air power. Sea power. Boots on the ground.
    And one thing that was brought out in all of the country 
briefings in these countries was the sharing of intelligence 
information. It is not up to par. And if we can accelerate with 
all of this power, with our allies, I think it would be one way 
to wipe out this barbarian group once and for all.
    Gentlemen, the entire world is on alert. The American 
people are on edge. There are ISIL cells in our States here in 
America. So I am just wondering what your ideas are on 
accelerating this mission that we have to wipe out ISIL, and 
what about the intelligence information sharing?
    General Dunford. Thank you, Congresswoman. I will come to 
the intel piece first.
    First of all, I think your observation is actually exactly 
right on the mark and is a fact. And in the wake of Paris that 
has been one of the things that was identified.
    We have a reasonably good information sharing within the 
United States across the interagency; certainly not perfect, 
but we work that pretty hard every day. As you saw in the wake 
of Paris, other nations not only have a challenge sharing 
information with other countries, but they have difficulty 
sharing information with other agencies within the same 
country. That has been recognized as an issue.
    Certainly, as Secretary Carter and I work on one of the 
more fundamental issues, the foreign fighter issue, that has 
been identified as probably the single biggest thing that 
inhibits our ability to stop the flow of foreign fighters, is 
information and intelligence sharing across all the countries 
that are affected. And we think there is at least 100, maybe 
120 countries that have individuals who have actually gone to 
Syria and Iraq to fight and presumably will return home at some 
point. And so there is a strong imperative to do that.
    With regard to accelerating the campaign, you know, 
Secretary Carter and I have talked about what we are doing 
inside of Iraq and Syria, but also recognize that this is a 
transregional threat that requires a global strategy. And as we 
are conducting operations in Syria and Iraq, and as we are 
trying to create pressure simultaneously across ISIL in Iraq 
and Syria, we are trying to do the same thing in all of the 
other locations where ISIL exists. And we assess today there is 
certainly a number of branches that are sanctioned by ISIL and 
a number of other groups that are striving to become part of 
ISIL.
    Ms. Bordallo. Thank you very much, General.
    I do agree with much of what was said today, and I do know 
that I understand the difficulties and challenges in dealing 
with different cultures and different countries. But I really 
think that, you know, it is going beyond what we ever expected. 
And now we are just all up in the air about whether this is 
going to hit our own country. So I just hope that we can work 
together and try to beef up.
    We have been with our allies now for a long time. Many of 
them we train their troops. So I do think we are ready to step 
it up and once and for all wipe out this barbarian group.
    And I yield back, Mr. Chairman.
    The Chairman. I thank the gentlelady.
    Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    Mr. Secretary, I know you are aware of the fact that there 
have been allegations that intelligence officials at CENTCOM 
have skewed findings on the ISIS war to please their superiors 
and to please those in Washington. I am holding a Daily Beast 
article from November 23. It says, ``Analysts Accuse CENTCOM of 
Covering Up Cooked ISIS Intelligence.'' The article goes on to 
say that the inspector general is looking into CENTCOM's 
perhaps cooking the intelligence to make the picture more rosy 
than what is occurring. And it goes on to have a concern that, 
in fact, emails and documents may have been deleted before they 
were turned over to investigators concerning the CENTCOM 
doctoring or making a more rosy appearance. In fact, the 
chairman and I sit on the Intelligence Committee also. The 
chairman of the Intelligence Committee has sent to the 
inspector general a letter inquiring about the allegations of 
those documents having been deleted.
    Now, I said I sit on the Intelligence Committee. I have 
also attended the classified portions of briefings at this 
committee, and you have said you can only go into so far in 
this hearing. In your written testimony you say, some of this, 
I can only tell you what is unclassified. But you say, ``We are 
gathering momentum on the battlefield in Syria and Iraq.'' You 
say, ``All of these efforts from northern Syria through Iraq 
have shrunk the ISIL-controlled territory in both.''
    Mr. Secretary, you can understand my concern that while we 
have allegations that CENTCOM is doctoring intelligence to make 
things a rosy picture and while you sit before us and say we 
are gathering momentum and their footprint has shrunk, well, 
General Dunford sitting next to you has admitted that ISIL is 
not contained, that we are all a little concerned that you are 
giving us a rosy picture. And I personally believe, I think as 
many do, that not only do we not really have a strategy, but 
you can't have a strategy unless it is based on an accurate 
picture of what is happening and the threat that we have.
    Mr. Secretary, how do you respond to the allegations that 
the Department of Defense, CENTCOM, perhaps even your own 
testimony today is painting a much rosier picture than what we 
are facing?
    Secretary Carter. First of all, with respect to 
intelligence, and I insist upon accurate, candid advice from 
the intelligence community and I don't rely upon just one 
source.
    Mr. Turner. I appreciate that commitment, Mr. Secretary, 
but the question is about ISIL and Syria and Iraq. You have 
made statements here in your written statement that their 
footprint is shrinking, has been shrunk. General Dunford is 
saying they are not contained. You say that we are gathering 
momentum. I know everybody has been in the classified briefings 
that we have had here. No one has ever said that to us before. 
And when you put that in the same context of CENTCOM having 
allegations that they have doctored intelligence as to what the 
circumstances are, I think you have somewhat of a high bar to 
pass to be able to sit in front of us and tell us that the 
battlefield is--it is turning in our direction. How do you 
justify that?
    Secretary Carter. Well, let's just be clear about what I 
said. The territory under ISIL's control has shrunk. That is a 
fact. And that is not a fact that I would suggest is the end of 
the story. I tell you we need more momentum. We need to keep 
that up. So I am very careful.
    Mr. Turner. Who controls the territory where it has shrunk 
in Syria?
    Secretary Carter. Well, Kurds, for example.
    Mr. Turner. And in Iraq?
    Secretary Carter. Kurds, also, for example.
    Mr. Turner. And was that part----
    Secretary Carter. That is a fact. Is there still a lot 
farther to go? You bet there is. And I am committed, and I will 
be, and I have been absolutely candid with you, I expect 
intelligence officials to be candid with me. I can't comment on 
an inspector general investigation.
    Mr. Turner. So, Mr. Secretary----
    Secretary Carter. But I will tell you----
    Mr. Turner. It is my time. So it is your testimony here 
today, because the Kurds have made advances, that we have 
momentum and that ISIL is shrinking?
    Secretary Carter. For that and a number of other reasons we 
are gathering momentum and it is a fact that the territory 
under ISIL's control has shrunk. That is not a declaration of 
victory. It is a----
    Mr. Turner. You have indicated that it is war. Are we 
winning, Mr. Secretary?
    Secretary Carter. We will win.
    Mr. Turner. Are we winning now?
    Secretary Carter. We are going to win.
    Mr. Turner. Well, Mr. Secretary, you know, most of us on 
both sides of the aisle do not have confidence that you have a 
strategy and that you do not have a strategy based on an 
accurate assessment. I think your presentation here today shows 
a disconnect between what all the information that we are 
receiving and really what is being placed into the United 
States effort.
    I yield back.
    The Chairman. Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman.
    I want to thank both witnesses for their testimony today, 
particularly the, in my opinion, very powerful statement that 
both of you articulated about the fact that it is Congress'--if 
we want to do something on our side of the witness table, we 
need to act. We need to move forward on an Authorization of Use 
of Force and the general's comments in terms of the impact that 
would have on those wearing the uniform that are out there 
taking the fight.
    Frankly, I just hope people will take that to heart. The 
finger-pointing and chest-thumping that goes on up here 
sometimes at the same time that we have been sitting since 
February when the President sent over language for an 
Authorization of Use of Force and have done nothing is just 
totally inexcusable and unacceptable.
    I wanted, though, to point or just focus for a moment on 
the fact that we did actually in 2014 move forward on title 10 
authorization, which was incorporated into the NDAA [National 
Defense Authorization Act], that gave authority for train-and-
equip operations. You alluded to it, Mr. Secretary, in terms of 
that program. Again, the out-of-country training seemed to have 
sort of fizzled out. I guess the question I want to ask is, is 
that a dead letter now or are you using it in other ways to, 
again, take the fight to ISIL?
    Secretary Carter. Well, we are continuing to train and 
equip forces. We are doing it in different ways as we learn 
more. And we are now, particularly in Syria, we have found 
groups that already exist and are fighting and which we can 
enable with special capabilities and train people specially to 
accompany them or send Americans to accompany them. That is 
preferable to trying to create entirely new units by taking 
individuals out of the country and trying to put them together.
    We are still--we will continue--we are going to try 
everything that works. So we are doing some of the latter down 
in southern Syria and having some success at doing that, at 
forming units to fight ISIL. But we also continue to look and 
to find forces that are willing to fight ISIL and to give them 
the equipment, the training, and the enabling that will allow 
them to be successful. And we are doing that all over Syria and 
all over Iraq, and that is the key to getting a continued 
momentum.
    Chairman, do you have anything to add to that?
    General Dunford. Congressman, I think the thing that is 
important is that we are going to need indigenous ground forces 
and regional ground forces to be successful. So it really is a 
question, as the Secretary outlined, we have changed the method 
of developing those indigenous ground forces, but the end state 
has remained consistent, and the authorities that we have in 
the NDAA are exactly the ones we need to continue to progress.
    I will give you an example. We were training individuals. 
We brought them into Turkey. We tried to send them back into 
the fight in Syria. We didn't believe that that was going to 
get us to where we needed to be as fast as we needed to get 
there. So we decided to go with vetted groups and we are 
currently supporting the Syrian Arab Coalition, which is 
actually one of the groups that has had some success in Al-Hawl 
and is moving now down towards Raqqa, which is where core ISIL 
resides. That authority is what we are using to support those 
forces right now.
    Mr. Courtney. And I appreciate you mentioning that specific 
scenario because, again, I think it shows that, you know, there 
are tangible results when we moved as a Congress on a 
bipartisan basis to give you the tools to succeed. And that is 
why it is really not just, you know, a cable news debating 
topic here in terms of authorization. I mean, there is real 
value in terms of helping us accomplish the goal here, is as 
Congress, you know, listening to the military needs and moving 
forward and giving people the tools to succeed.
    And the taking of Al-Hawl is a perfect example of that, 
which, again, there is no intelligence question about whether 
that happened. I mean, it has been reported in every sort of 
international media out there. It succeeded. And we should be 
looking for those opportunities on our side of the witness 
table in terms of giving you the tools to move forward.
    And with that I yield back, Mr. Chairman.
    The Chairman. Mr. Kline.
    Mr. Kline. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here today. I want to take 
a few seconds to weigh in on the ``are we at war?'' question, 
which was so busily discussed up here on the top row.
    If you go back to the 9/11 Commission Report, they very 
clearly stated that we are at war, that we have an enemy, it is 
Islamic terrorists, and that they are waging war against us. 
And I would argue they are continuing to wage war against us. 
So whether we like it or not, we are in a war.
    Having said that, I think it would be very, very useful if 
we would indeed debate and pass a new Authorization for the Use 
of Military Force to clear up this kind of esoteric discussion.
    General Dunford, when I was in Baghdad a few months ago I 
was talking to American troops, and even though we 
theoretically don't have troops on the ground, there were some 
3,500 American troops on the ground. But I was told we can't 
have any more than that, we are at a limit.
    So my question is, is that true? Are we limited in what we 
do by a number, whether it is 3,500 or maybe now it is 3,550, 
if we are sending some special operating forces over there? Are 
we limited to a number?
    General Dunford. Congressman, thanks for asking that 
question. I have had that conversation with our commanders on 
the ground as well.
    I do not believe we are limited by the number 3,500. We are 
managing 3,500 because that is the number of troops that the 
President has approved to date. But I can assure that you I 
don't feel at all inhibited about making recommendations that 
would cause us to grow greater than 3,500 were I to believe it 
would help us defeat ISIL. And I have told our commanders, to 
include General MacFarland as recently as 10 days ago, to not 
be inhibited at all in identifying to me the capabilities he 
needs on the ground, regardless of the force management level, 
which is really what you are referring to, that 3,500, and that 
I will bring those options to the Secretary and the President.
    Mr. Kline. Well, I am only somewhat relieved to hear that 
because I hate to think that we are down to managing a number 
where we have to go to President of the United States to go 
from 3,500 to 3,600, or to 3,700, or 3,800. And right now it is 
my understanding, for example, you, if you needed to, you 
couldn't move in a battalion of attack helicopters or combat 
search and rescue or something to be stationed in or around 
Baghdad.
    And I just--you and I, frankly, have had this discussion 
before, including about Afghanistan--and I just think it is a 
terrible imposition on the military campaign to complete a 
strategy which I, like others, am not at all convinced we 
really have at this point. But presumably you have got a 
strategy to fight and win.
    If you need the forces to do it, it seems to me you ought 
to be able to move those forces without having to go to the 
President of the United States and say, ``I need another 25 
people.'' And I would make the same argument about Afghanistan. 
I don't know how we got--actually, I do know how we got a 
number that is below 10,000.
    But my point is, is that we are getting numbers. You, the 
Chairman of the Joint Chiefs, the Joint Chiefs, the Secretary 
of Defense, and others are being asked to wage a campaign based 
on a cap of numbers in a country. And if that is not true--now 
you say you feel comfortable in going to the President of the 
United States and saying we need some more numbers. But right 
now General Austin or anybody else can't send in a battalion, a 
company, if he feels he needs it in Baghdad. Is that correct?
    General Dunford. Congressman, if I could just quickly 
respond. I view my responsibility to identify to the President 
and the Secretary the capabilities that the commanders need to 
accomplish the mission. And I can assure you that I will not be 
at all inhibited in bringing those recommendations forward to 
the President and Secretary, regardless of what the force 
management levels or the numbers may have been articulated as 
in the past. I will not feel at all constrained in bringing 
forward recommendations for additional capabilities if that is 
what it takes us to defeat the enemy.
    Mr. Kline. Well, the way you put that is exactly correct. 
It is additional capabilities. It is not numbers. If you need 
the capability to conduct combat search and rescue in a 
reasonable amount of time and fly them from Kuwait to western 
Iraq, to me is not a reasonable amount of time if you have to 
go and rescue a downed pilot. If you need that capability, it 
seems to me, Chairman of the Joint Chiefs, that needs to be 
recommended. If you don't think so I am a little bit surprised, 
because from what I hear in visits there and talking to others 
is there is a sense on the ground that they need some more 
capability.
    So please, please, please, please do not hesitate to make 
the recommendation to get the capability we need, whether it is 
in Afghanistan or whether it is in Iraq and Syria, and let's 
get out of managing by the dag-burn numbers.
    I yield back.
    The Chairman. Ms. Tsongas.
    Ms. Tsongas. Thank you, Mr. Chairman.
    And thank you both for being here.
    And, General Dunford, I am not sure that that isn't the 
first time since you have become Chairman and as a son of 
Massachusetts, I particularly want to welcome you. It is proud 
for all of us that you are in the position that you are today. 
So thank you both for being here.
    And I think the discussion we have had today really does 
reinforce the complexity of the challenge that we face, and we 
have heard a number of those here today saying it really, I 
think, underscores the idea that we really need to have a 
robust debate that involves all of Congress, not just the 
committees that really need to focus on this, because it is a 
complex situation. We need to better understand the role of our 
allies, both Sunni and otherwise, what the costs are going to 
be over time, what it is going to require of those serving in 
our behalf. And so I would really like to underscore those who 
have called for the need to have a new Authorization for the 
Use of Military Force.
    But given the complexities, I just wanted to get to a 
couple of them. The administration often talks about the 65 
countries that are participating in the coalition against ISIL. 
But roughly 50 of them have never been directly involved in the 
air campaign and while many who were participating at the 
beginning have ceased their military involvement.
    Can you tell me more about what is behind these countries' 
hesitations, and in particular, as we are focusing on what we 
should be sending to the fight, whether or not there is a need 
for more combat troops, boots on the ground? What is the 
willingness of this coalition, particularly our Sunni allies, 
to lend their forces to the fight?
    So I will start with you, Secretary Carter.
    Secretary Carter. Well, you are right, we do need them to 
do more. In Europe, as I said, the attacks in Paris have 
galvanized the French. The French are coming in very strongly 
in Syria, which they hadn't done before, and now are very 
willing to do so. The British are debating it, as I said. The 
Germans appear--they are certainly capable of doing more. We 
want them to do more. And so I would characterize for Europe, I 
hope that the Paris attacks galvanize all of Europe to do more, 
because they need to do more.
    In Syria and Iraq, elsewhere around the world, and, of 
course, in their own homelands, where, to get back to an 
earlier point made, we share intelligence on homeland security, 
we depend to some extent upon their homeland security 
structures when it comes--when people visit from Europe to the 
United States, and so forth, for our own security. And then you 
mentioned the Gulf states as well.
    Ms. Tsongas. And that is really where my question I think 
is very important.
    Secretary Carter. This is something that we began to 
discuss with the Gulf states back at Camp David in the spring, 
the President did. A natural force, in particularly the Sunni 
areas of Syria and Iraq, would be Sunni Arabs, and a more 
effective and insightful kind of force. They have been 
unwilling to field such forces----
    Ms. Tsongas. And what are your challenges in confronting 
that unwillingness? What is this? Can you talk more about the 
why?
    Secretary Carter. I am going to be very candid with you and 
I have said this before. Many of the Gulf states weight air 
capabilities, air forces, and so forth, over ground forces and 
special operations forces. And I think that if they want to, as 
we would wish them to, wield more influence in the Middle East 
and do more to secure this part of the world in which they live 
too, they are going to need to do more of that on the ground.
    And buying our airplanes is fine, we provide them, but when 
it comes to ground forces and special operations forces there 
is no question that they need to build those forces and wield 
them. They frequently complain to me, for example, about how 
capable the Iranians are, to which I say, yes, and you are not 
in the same game, an effective game on the ground.
    Ms. Tsongas. It goes to Ranking Member Smith's statement 
that in the end the Sunni part of the Muslim world has to take 
this on in order for it to be long-term effective.
    General Dunford, I am running out of time, 5 seconds' 
worth.
    General Dunford. Not only will we not be successful without 
our coalition partners, I don't see any way that we can be 
successful without our coalition partners.
    Ms. Tsongas. Thank you.
    The Chairman. Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman.
    Thank both of you for being here and for your service to 
our country.
    In June of this year, Chairman Thornberry held a nuclear 
deterrence oversight week, and we had a series of hearings and 
briefings. In one of those hearings we had Deputy Secretary Bob 
Work and Vice Chairman of the Joint Chiefs Sandy Winnefeld 
testify. They both did a great job. Both of them emphasized 
that in their opinion nuclear deterrence was the highest 
priority of DOD and they reflected on Secretary Hagel's 2014 
statement to the force to that effect.
    Secretary Carter, you now have that job. Do you share 
Secretary Hagel's view, as well as Bob Work's and Sandy 
Winnefeld's, that nuclear deterrence is the highest priority 
for the DOD, and if so, why?
    Secretary Carter. I sure do, and I actually on Thanksgiving 
was calling service members around the world, and one of the 
folks I called was a missileer who was spending his Christmas 
in a silo in North Dakota and I told him exactly that. I said, 
what you are doing is the single most important thing in the 
U.S. military. It is not in the news every day, and God help us 
if it is, but it is the bedrock of our security, and in the 
final analysis that it is the ultimate undergirder of American 
security. And that is why having an effective, modern, safe, 
secure nuclear deterrent is absolutely critical.
    Mr. Rogers. Great. Well, I appreciate you doing that, 
because I share that view, and I appreciate the fact that 
Secretary James is putting a renewed emphasis on that area. It 
is my hope that you will also do your own statement to the 
force and be as clear on that issue as your predecessor was.
    But either one of you, Secretary Work, as well as Vice 
Chairman Winnefeld, Admiral Haney, Secretary Kendall, have all 
made the statement that they believe the Long-Range Stand-off 
weapon [LRSO] should be pursued to replace the current air 
launch cruise missiles. Do you all share that view, and do you 
see that progressing at a pace that you find acceptable?
    Secretary Carter. I do. I do definitely support it.
    Chairman.
    General Dunford. I do as well, Congressman. I think it is 
important. We talked a minute ago about the threats to our 
Nation, and I think it is all about flexibility and options. 
And I think that capability reflects an important option that 
we ought to have were we to be engaged in a high-intensity 
conflict.
    Mr. Rogers. Do you see the progress toward that LRSO 
slipping in funding in any way?
    General Dunford. Congressman, I would personally like to 
take that for the record. I am not tracking the profile at this 
time.
    [The information referred to can be found in the Appendix 
on page 79.]
    Mr. Rogers. Do you believe that it should be allowed to 
slip or be canceled?
    General Dunford. Well, I know that there is a timeline 
along which it needs to be met because of the obsolescence of 
the weapon system it is replacing. So we ought to have it 
fielded in time to meet the operational requirement, but I 
don't know what that is right now.
    Mr. Rogers. Secretary, do you have anything else to say?
    Secretary Carter. Exactly to echo, and we can get back to 
you in more detail. There is a schedule to complete it. It, 
like a lot of our nuclear modernization programs, need adequate 
funding. That is not an entirely Department of Defense matter. 
It is a Department of Energy matter as well. So we watch it 
closely. But it is an important system and we need to manage it 
with our colleagues in the Department of Energy appropriately. 
We will get back to you with some more detail on that. The 
important point is we support it.
    Mr. Rogers. Thank you both very much.
    That is all I have, Mr. Chairman.
    The Chairman. Mr. Johnson.
    Mr. Johnson. Thank you, Mr. Chairman.
    And thank you, gentlemen, for your service.
    This committee has a responsibility to conduct oversight of 
the administration's strategy for prosecuting the U.S. counter-
ISIL campaign, and it is quite appropriate for members of this 
committee to express their disagreement and disapproval of the 
administration's strategy.
    However, the tone of the disagreement, disapproval, is 
important. Politicians know that relentless personal attacks on 
the President himself provoke a visceral reaction by the 
American people against the President, and that is a part of 
our campaign process.
    But what effect does the unprecedented level of attack on 
our Commander in Chief have on our relationships with our 
allies, for instance? What impact does it have on our ability 
to galvanize our regional and nation supporters to participate 
in the strategy that we are leading? What impact does it have 
on the enemies of America who we are leading the strategy 
against?
    If I might start by asking that question of you, Secretary 
Carter, and next of you, General Dunford.
    Secretary Carter. Well, you can ask the question, but I am 
not going to respond to it, and I will tell you why. I serve at 
the pleasure of President Obama and obviously support his 
policies. We are coming into an electoral season now in the 
United States, which I respect very much. However, I also very 
much respect the tradition and necessity of Defense to be out 
of the political swirl, and I intend to conduct myself in that 
manner over the next year-and-a-quarter or so of my service as 
Secretary of Defense.
    And I especially consider it one of my responsibilities to 
shield our military from that swirl. Their job is to do--give 
their professional military advice in a candid manner no matter 
what the politics say and to conduct the Nation's operations to 
protect our people.
    So with great respect, I understand where you are coming 
from in terms of your question, but I would prefer not to 
answer it because of its connection with the electoral cycle.
    Mr. Johnson. Well, thank you. I respect that answer.
    And General Dunford.
    General Dunford. Sir, I think it is even more important for 
me in uniform to have the same position.
    Mr. Johnson. Well, thank you.
    And I assume that it probably does have some impact on our 
relationship with our allies and all of the other components 
that we have to work with to successfully prosecute this 
mission.
    I have another question. How many ISIL forces are there in 
Iraq and Syria?
    Secretary Carter. The estimates are in the--and I want to 
emphasize these are estimates--so the Chairman and I are 
conferring on notes here--estimates in the neighborhood of 
30,000. I hesitate to give numbers like that for the reason 
that I don't think our intelligence information is perfect in 
that regard and because they may involve people with varying 
levels of responsibility or actual adherence to ISIL.
    Let me see if the Chairman wants to add anything to that, 
but I would just ask everyone to take with a grain of salt 
numbers like that because we do our best, or our intelligence 
community does their very best to be accurate, but I at least 
look with caution upon those estimates.
    Chairman.
    General Dunford. I think that is exactly right, Mr. 
Secretary.
    And the estimates have been consistently between 20- and 
30,000, Congressman. But I have the same caution in sharing 
those numbers or actually, you know, confirming the veracity of 
those numbers.
    Mr. Johnson. All right. Thank you. And I yield back.
    The Chairman. Mr. Franks.
    Mr. Franks. Well, thank you, Mr. Chairman.
    I thank both of you for being here.
    Secretary Carter, I remember that you and I had a 
conversation here many months ago related to the Kurds and the 
Peshmerga efforts, and to your credit I think you strongly 
agreed that they had stood out an as effective force against 
ISIS. One of the Peshmerga commanders recently voiced a hopeful 
view of defeating ISIS, in my mind the most hopeful to date. He 
said, for the last 15 months that I have been fighting Daesh, I 
have never seen them so weak. They were literally running away. 
Now, that, as you know, is probably a general's effort to try 
to improve his morale of his soldiers and keep going.
    But it is clear that they have done a marvelous job. And 
before ISIS brings a Paris or an Ankara or a Beirut-like attack 
to the United States, I think it is very important that we 
really get on the ball here. And as you know, this 
administration, ambassadors, two secretaries, they pushed back 
quite a lot related to the amendment that this committee passed 
to directly arm and support the Kurds. There was a tremendous 
amount of pushback and resistance to that. And I quite honestly 
can't fathom the reason for that.
    But now I guess my question to you is, is everybody on the 
same page now? Is there support now for both the Senate 
amendment--it is in the NDAA--is there support to try to 
animate that amendment in a way that would make it most 
effective? I am talking about the amendment to support the 
Kurds now.
    Secretary Carter. Well, we definitely want to support the 
Kurds, and we want to support Sunni tribes as well. I think the 
gist of your question is, will we continue to do that with, by, 
and through the government in Baghdad now. And our preference 
is to do that because our preference is to support a 
multisectarian, albeit decentralized government of Iraq because 
the alternative is sectarianism and down that road we know what 
lies there.
    So we continue to support Baghdad in that regard. And, 
therefore, when we arm the Kurds, as I indicated in my 
testimony, the Baghdad government gets to look at the shipments 
and so forth. It doesn't delay them materially. And so it is 
not a problem from----
    Mr. Franks. But isn't it true--not to interrupt you, sir--
but isn't it true that CJCS has been arming the Kurds and 
helping them directly?
    Secretary Carter. I am sorry, I don't recognize the 
acronym--I mean, I recognize the acronym, but it is for the 
Chairman.<dagger>
---------------------------------------------------------------------------
    <dagger> Editor Note: The widely recognized definition of ``CJCS'' 
is ``Chairman of the Joint Chiefs of Staff.'' It is unclear to whom Mr. 
Franks was referring.
---------------------------------------------------------------------------
    Mr. Franks. General Dunford.
    General Dunford. When you say CJCS, Congressman----
    Mr. Franks. I understand that the Kurds have been armed 
directly by this group. So I am just wondering is that--what I 
hear you, I hear you saying two different things. I hear you 
saying that we should support the amendment that we had here 
that called for arming the Kurds directly, but that we are 
still letting the Government of Iraq be sort of the referee of 
it all to make sure that we don't upset them in some way.
    Secretary Carter. What I am saying is that we do arm the 
Kurds. By the way, others do as well. I don't know what 
organization you are referring to. But other countries are 
arming the Kurds also. We do that with--through, in this 
nominal manner, the government of Baghdad, for the larger 
reason that we support multisectarian governance in Iraq. That 
is simply the reason why we do it.
    Mr. Franks. But at this point, not to belabor the point 
here, but at this point there is a consensus that the 
administration is now on board with the amendments that we had 
or the provisions we had in this NDAA to step up our support 
for the Kurds.
    Secretary Carter. I don't think it is necessary for us to 
have language that allows us to directly support the Kurds, 
because we are able to support the Kurds in the way we are 
doing it now, so we don't need any additional authority. But I 
hear your basic thinking, which is that the Kurds are an 
effective fighting force, it is important to back them up.
    Mr. Franks. Well, the point is, 6 months ago, if we had had 
this kind of support, the landscape might looked a lot 
differently. And, you know, I don't like to do the ``I told you 
so thing'' at all, but I just am astonished sometimes at this 
administration's lackadaisical approach to a very dangerous 
enemy. And I have, unfortunately, run out of time.
    The Chairman. Ms. Speier.
    Ms. Speier. Mr. Chairman, thank you.
    And thank you both for your leadership and service.
    And, you know, Monday morning quarterbacking is always a 
whole lot easier. And I know that you are, you know, very 
committed to eradicating ISIS. I would like to know how many 
troops you are intending to add to the special ops in Syria? 
You mentioned, Secretary, that you were intending to do that. 
How many more are you intending to offer?
    Secretary Carter. There are two ways of answering that 
question. One is the particular operations that we are 
preparing to conduct now, I am sorry, in Syria, with our 
special operations forces, are intended to enable capable local 
ground forces. I would rather--I really can't go into what 
their operations are going to be here.
    Ms. Speier. No, I understand. You have about 50 now.
    Secretary Carter. And they have indicated a number around 
50.
    And the second thing I want to say is that is for starters. 
If we find more forces that we can enable in this way, we are 
prepared to do more. I think the Chairman and I have repeatedly 
said that. We are prepared to do more. I have every reason to 
believe the President will allow us to do more and authorize us 
to do more when we have more opportunities. We are looking for 
those opportunities to do more. So we are actually eager to do 
more because that will accelerate the defeat of ISIL, but it 
hinges upon us finding the capable local forces that we can 
enable in this way. And that is what we are looking for. And 
every time we find them we will enable them.
    So I would hope and expect--this gets back to the whole 
question of numbers. The point isn't numbers. The point is 
capabilities and the ability to enable capable and motivated 
local forces. The more we find them, the more we will do.
    Ms. Speier. One other question. You referenced earlier that 
ISIS is metastasizing. I thought that was a very appropriate 
word and also a frightening word. And we know based on The New 
York Times article, certainly, that they have become somewhat 
entrenched in Libya. I presume, without wanting to, you know, 
signal to ISIS that we are recognizing that and taking steps to 
address that, that you have a plan that you are putting in 
place to deal with that?
    Secretary Carter. It can't be any secret to ISIL because we 
killed their leader in Libya a few weeks ago. So it shouldn't 
come as any surprise that we are determined to get them 
wherever they arise. And metastasis is a good word because 
these radical cells pop up and multiply fueled by the Internet. 
This is the first Internet terrorist organization--I mean, 
social media, I guess, fueled terrorist organization. So it is 
a serious and new kind of thing. It does spring up everywhere. 
And we have to strike it everywhere that we find it, including 
Libya, and we already have.
    Ms. Speier. You mentioned social media, and their 
effectiveness on social media has left us somewhat flatfooted, 
I would suggest. There is some effort to grant you 
authorization that would allow you to conduct offensive 
cyberspace operations at the speed in which ISIL threats are 
coming in. Is that going to make a huge difference in our 
approach to attack them in cyberspace?
    Secretary Carter. We are looking at, along with law 
enforcement and Homeland Security, ways of countering them on 
the Internet, I mean, and I will let the law enforcement 
community speak for itself. But there is a very strong effort 
on the part of the FBI to identify self-radicalizing 
individuals in the United States. They do exist, as we know 
from Chattanooga.
    And I might want to add, by the way, just by way 
clarification, earlier on you were asking about special 
operations forces in Syria. I was speaking of those that 
accompany and enable ground forces. I want to say in addition 
to that we are forming and have the expeditionary targeting 
force. That is a force that wouldn't be on the ground all the 
time in Syria. It would go in, conduct raids, and go out. I 
just want to emphasize that is a larger number of people.
    Ms. Speier. And how many troops are included in that 
number?
    Secretary Carter. A larger number. I would rather give that 
to you in a classified setting, but a larger number.
    Ms. Speier. All right. Finally, the executive order that is 
required in order for you to--I yield back.
    The Chairman. I thank the gentlelady.
    Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman.
    I am having, based on what you have said this morning, 
having a difficult time getting to the scope of what needs to 
get done in Syria and Iraq. I know you used some anecdotes that 
we are making progress and we are gaining momentum. If I am 
trying to climb Mount Everest, I can walk 5 or 6 feet up, look 
you in the eye with a straight face, and tell you I am making 
progress. And if I run the next 15 feet, I can tell you I am 
gaining momentum.
    Can you tell me, not specifics, but can you tell me the 
Department of Defense has a game plan that says this is how 
many motivated local forces we need, this is, you know, 
everything we have got to go, so that you can share with the 
committee so we could see the scope of what has to get done in 
this effort? Is that laid out in your--not for public 
dissemination, but for our point being able to see what have 
you done, what needs to get done in the scope of this issue?
    Secretary Carter. Well, I think the outlines of that are 
very clear. That is what the strategy is about.
    Mr. Conaway. I have got the strategy. I got that, Ash. But, 
I mean, how many local forces and how many X, Ys? Do you guys 
know that yet?
    General Dunford.
    Secretary Carter. Go ahead, General, if you want.
    General Dunford. We do, Congressman. We have got the 
specific numbers of brigades that we think that need to be 
trained in order to have successful Iraqi Security Forces. So 
we have a number of objectives.
    Mr. Conaway. I am talking about Syria as well. This is a 
whole fight. We have got both countries.
    General Dunford. Right. In Syria, to be honest with you, 
Congressman, I think the military campaign in Syria is designed 
right now to put pressure on core ISIL, while the political 
reconciliation process takes place. There is not a military 
solution in Syria.
    Mr. Conaway. Got you. At some point in time I think it 
would be helpful if we had a sense of what this beast looked 
like.
    You also mentioned that we spent some period of time 
studying the oil infrastructure. And I know you weren't there, 
and you are a Marine, that is not how you would do it 
necessarily. But taking out the tankers and how they move oil 
from point A to point B, why is it that we just got to doing 
that the last week as opposed to why weren't they the first? I 
mean, I understand the production facilities and all of that 
kind of good stuff, but the movement itself, why did we wait so 
long to do that?
    General Dunford. Congressman, you know, again, I don't know 
what the thought process was 6 or 8 months ago. I do know that 
we have a much better appreciation for the revenue sources of 
ISIL, even--I will just share this with you.
    In August I went around to all of the region as I was in 
transition to try to get a sense--a better sense of ISIL. At 
that time, there wasn't a clear understanding of how ISIL was 
generating revenue. Even in the weeks subsequent to August we 
started to have a much better appreciation for the source of 
ISIL revenue, and so started to go after the oil infrastructure 
and the tankers because we then appreciated how much of an 
impact that would have.
    Mr. Conaway. I guess in the same vein, it looked like the 
French targets, the first targets they hit seemed to be targets 
that we should have hit right off the bat. Has all of that 
changed now? Are we in a new paradigm? I got the Monday morning 
quarterbacking nonsense, but going forward, when we see things 
to hit, are we in a position now to hit everything that makes 
sense from a military standpoint?
    General Dunford. The simple answer is, Congressman, I can 
assure you the answer to that question is yes.
    Mr. Conaway. Okay.
    The Russians are purported to be introducing significant 
upgraded air defense capability. What impact will that have on 
our operations and our ability to do what we want to do?
    General Dunford. We have watched that development very 
carefully. That is a very capable air defense system that has 
been brought in. We have a memorandum of understanding to 
ensure safety of flight with the Russians. I, as recently as 
yesterday, spoke to my counterpart, the Russian Chief of 
Defense, to ensure that they would be compliant with that 
memorandum of understanding. They have been over the past 30 to 
45 days. And I assess today that we have the capability to 
prosecute the campaign against ISIL, the campaign that we 
envision, with Russia's presence.
    Mr. Conaway. Do our pilots have the right rules of 
engagement if they are engaged?
    General Dunford. They do. They do, Congressman.
    Mr. Conaway. Okay. Yield back. Thank you.
    The Chairman. Ms. Duckworth.
    Ms. Duckworth. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here today. And, Chairman 
Dunford, I know you are no stranger to the committee, but 
welcome in your new capacity as Chairman of the Joint Chiefs.
    Before I get into my line of questioning, I just want to 
point out my support for my colleague's earlier discussion on 
the need for Congress to do our job to actually take some 
action on a new AUMF. I understand the President did submit a 
draft AUMF earlier this year. We, in fact, had several hearings 
on it. Secretary Carter, you mentioned that also. But I think 
that it is vital that we get this right, and the AUMF is part 
of that.
    I think the men and women who deploy into harm's way, some 
of whom may not come back, as is the case of Master Sergeant 
Wheeler, deserve to know that not only do they have the moral 
support, but the legal backing of our Nation. So I would hope 
that we here in Congress would devote equal effort to having 
this debate and talking about the true costs in terms of 
resources and sacrifices required as we get into the deeper 
discussion of one strategy over another.
    So, gentlemen, what I am concerned with and my line of 
questioning is really going to focus on the global strategy 
against ISIL. And I think that we have not really discussed in 
this committee so far other regions where ISIL is established 
outside of the Middle East that I believe pose just as big of a 
threat, perhaps even more, and I am thinking in particular of 
Libya. Patrick Pryor, the DIA's [Defense Intelligence Agency's] 
top counterterrorism official, was recently quoted as saying 
about ISIL that Libya is the affiliate that we are most worried 
about, and that it is the hub from which they project across 
all of North Africa.
    While we have a clear and present danger in Syria and Iraq, 
Mr. Secretary, please explain what the larger military strategy 
is to confront a global threat and how we are leveraging the 
different elements of American power, not just our military, 
and specifically, as much as you can in an unclassified 
setting, about our efforts to combat ISIL in Libya.
    Secretary Carter. Well, it is a--it is, as it must be, a 
global strategy. It has to be in all media, to go back to the 
earlier question about messaging and cyber. And while I believe 
we play a central and essential role, it is not purely a 
military campaign, it involves all the other instruments. But 
we are absolutely necessary; we are not by ourselves 
sufficient.
    With respect to Libya, we have taken action there in 
recognition of the fact that because of the continuing 
political discord in Libya, which has not been resolved--
obviously we are in favor of a political resolution in Libya 
which would lead to decent governance there and therefore not a 
fertile ground for the growth of ISIL--that political 
settlement has not occurred and therefore it is fertile ground 
for the spread of ISIL, and therefore we are having to take 
military action there. And I gave you an indication of that 
already, striking their leadership there. So it is a focus of 
ours.
    Ms. Duckworth. Where else, other than Libya, do you see a 
real threat from ISIL and their forces? And, you know, I am 
concerned that--I see the general nodding--I am concerned that 
we are--you know, there is this training, these areas where 
there are failed states where ISIL is using as a staging base.
    General Dunford. Some of the areas that immediately come to 
mind, obviously Egypt is one of the areas where we are 
concerned. That is where the Russian aircraft was taken down. 
The Boko Haram group has sworn allegiance and been accepted as 
a part of the ISIL movement in Nigeria. We have seen ISIL in 
the Afghanistan-Pakistan region. We have seen ISIL in Yemen. We 
have seen elements of ISIL in Lebanon and Jordan. So it is 
absolutely a global dynamic.
    Ms. Duckworth. Thank you.
    I would like to return to the discussion earlier about the 
hold force, Mr. Secretary, in Iraq. You know, looking at our 
vision for the future of Iraq and Syria, what political 
outcomes in Iraq do you envision and what is your assessment of 
Prime Minister Abadi and whether he is making the necessary 
reforms and whether those are going to be enough for this hold 
force? It is hard to find these folks and when you do, you have 
got to be able to try to keep them, you know, at their 
stations. But if they are not buying into what they need 
politically, if they are not getting that, they are going to 
abandon that role.
    So what is the political consequences that we need to 
happen in Iraq in order to maintain the hold force and to gain 
more folks to become hold forces?
    Secretary Carter. The political future that we are 
supporting in Iraq and that Prime Minister Abadi says he 
supports, I have spoken to him and I believe that he supports, 
but it is difficult to accomplish, is a multisectarian but 
decentralized Iraqi state in which Kurds, Shia, and Sunni can 
live together under one state, have a reasonable amount of 
self-governance, not by ISIL in Sunni territory, but by people 
who can do a civilized job of governance in Sunni territory, 
and Kurds and Shia all living together under one state, 
reasonable decentralization and self-governance as appropriate, 
but under one state and at peace. That is what we are seeking.
    The alternative to that is a sectarian disintegration of 
Iraq. We know what that looks like. And we are hoping that 
Prime Minister Abadi can pursue that road, that he has enough 
support to do it. We are trying to help him do that. But 
Baghdad politics, no question about it, are complicated, and 
his predecessor was not on that road.
    Ms. Duckworth. I am out of time. Thank you, Mr. Chairman.
    The Chairman. Mr. Hunter.
    Mr. Hunter. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here and answering 
questions. I guess the first thing I would ask is, how can you 
reassure this body that the same administration that left in 
2010, no one had the forethought to see ISIS coming, nobody 
thought it was important that we stay on the Iraqi-Syria 
border--I served with General Dunford when he was a colonel 
working with General Mattis writing op orders and executing the 
op orders on the Syrian border in 2003. What has changed? Why 
should we think that you guys, that the administration is on 
the right path now, they had a ``come to Jesus'' moment and 
they have changed and now they understand the significance in 
this region, whereas they did not before?
    And you said yourself one reason you are building momentum 
now is because you lacked the intelligence capability, HUMINT 
[human intelligence] and otherwise, since 2010, which you are 
now regaining, but it wouldn't have been lost in the first 
place if this administration didn't squander the infrastructure 
that we had set up in 2010. Why should we trust you? I guess 
that is the question.
    Secretary Carter. Congressman, one of the reasons that I 
changed the structure of our command in Iraq over the last year 
is because I wanted--precisely because I wanted us to have the 
strength and the insight and the presence of a single senior 
American military officer in Baghdad.
    That is now Lieutenant General Sean McFarland. And he is 
now connected each and every day to the front, literally to the 
front in Ramadi, to our various areas where we are training 
Iraqi Security Forces. He can talk directly to Prime Minister 
Abadi, he can talk directly to everybody else who is in 
Baghdad, and has complete command over all of our forces in the 
fight--and by the way, in Iraq and Syria.
    Mr. Hunter. I have got a bunch of questions, and I am going 
to be out of time.
    Secretary Carter. Well, I am just saying that is 
incredible.
    Mr. Hunter. Well, I am asking you, what has changed? You? 
The answer is you, you have changed, and that was the dynamic 
that changed?
    Secretary Carter. Well, I think the ability to have people 
on the ground in Iraq is essential to effectiveness there and 
to have unity of command. We now have that again, and I think 
that is a good thing. And it does harken back to another era 
when we----
    Mr. Hunter. We do have it now?
    Secretary Carter [continuing]. Where we once again had it, 
as General Dunford had it in Afghanistan. It is really 
critical. We now have that.
    Mr. Hunter. Okay. Second question. If you were to declare--
or not declare war, but we had an Authorization of Use of 
Military Force, would it be against an autonomous state or 
would it be against terror worldwide, ISIS flavor?
    Secretary Carter. I kind of like the language in the AUMF 
that President Obama submitted, and I will tell you why, 
because as I told you, my first question when I was asked to 
review that, was does it give us what we need to defeat ISIS.
    Mr. Hunter. And let me ask a different way. Militarily, 
tactically, are you fighting a state? So I don't really care 
about--they were talking AUMF like philosophy class. What I 
mean, General Dunford, are you attacking a state or are you 
attacking war--I mean, terrorism in the region?
    General Dunford. We are fighting extremists who have used--
who use violence to advance their political goals in the form 
of terrorism.
    Mr. Hunter. What is different between that and Al Qaeda?
    General Dunford. In terms of the basic nature of ISIL and 
Al Qaeda, there is not a difference, from my perspective, 
Congressman.
    Mr. Hunter. So the fact that they hold territory and that 
there are battle lines in this war in Syria and Iraq, there is 
a behind enemy lines area, there are lines of departure that 
you would cross if you were to go fight them, that is different 
than Al Qaeda, would you say?
    General Dunford. It is. What I was referring to is the 
nature and the movement, in other words, ISIL and Al Qaeda. In 
terms of where ISIL is right now, they do in fact hold ground, 
they have declared a caliphate. I think that was an 
aspirational goal of Al Qaeda and something that ISIL has 
actually done today. So that does make it a bit different in 
the fact that they are currently holding ground and declared a 
caliphate.
    Mr. Hunter. Okay. And in terms of them actually having and 
holding ground, does that make it harder or easier in that area 
in Iraq and Syria where they actually hold ground, does that 
make it easier or harder to fight them compared to an Al Qaeda-
type enemy?
    General Dunford. Yeah. I think in this particular case, 
ISIL is particularly difficult because they are actually using 
humans as shields in places like Raqqa, Mosul, and Ramadi.
    Mr. Hunter. Which is no different than Al Qaeda in previous 
wars in Iraq and Afghanistan.
    General Dunford. Correct, but ISIL's location--we know 
where ISIL is. In the case of Al Qaeda, they blended into the 
country in a much different way than ISIL is.
    Mr. Hunter. Gotcha. With my last 6 seconds, we are still 
trying to get the Jordanians drones, been unable to do so 
because the State Department has stopped us. Now they are using 
Israeli Herons and Chinese Reaper equivalents instead of ours. 
I think we ought to fix that, Mr. Secretary, if we can.
    Thank you, Mr. Chairman.
    The Chairman. Mr. Ashford.
    Mr. Ashford. Thank you.
    And thank you, Mr. Secretary, and thank you, General 
Dunford.
    I have asked this before, and I was in the Middle East in 
February and we were briefed on these various topics, the 
intelligence mission, General Nagata's efforts to form up a 
Sunni force, and some of the Internet issues, the forming up of 
an Internet combative force there in Baghdad, I believe, at 
that time.
    And, you know, the home of the 55th Air Wing is in Omaha, 
near Omaha at Offutt, and has a significant role in this 
effort. And I too support the AUMF issue. I think you are 
absolutely right. I think you have mentioned that before. I 
think it is clear that Congress needs to act as quickly as 
possible in this effort.
    Here is my question, because I was there and was able to 
talk to King Abdullah, and he talked about, you know, putting 
the flag in the ground and getting ISIS out of the cities and 
all that sort of thing, and we talked about the intelligence 
collaborative efforts that were ongoing, and it was impressive 
to hear those efforts. Would you say that now, 9 months later, 
there is, I hate to put it--summarize it, but is there a 
significant change today from where we were 9 months ago in our 
readiness to achieve these goals that were annunciated 9 months 
ago? Would that phrase be accurate, Mr. Secretary?
    Secretary Carter. Well, we are constantly looking for 
opportunities to do more and doing more. So we are doing more 
than we were 9 months ago. I hope 9 months from now we are 
doing yet more, because we are looking for opportunities.
    You mentioned Jordan. We are, with King Abdullah and his 
people, working once again to identify, and we have found some, 
people in southern Syria who want to recapture their territory 
from ISIL, and we are supporting and enabling them.
    So we are looking to do more. And we are looking for 
proposals. I look to General Dunford for them, the President 
looks to me and General Dunford for proposals for how we can do 
more, and we have found them. And I have given you a number of 
indications of ways that we have accelerated the campaign over 
the last few months, and we will continue to do that.
    Mr. Ashford. Thank you. I don't believe, at least 9 months 
ago, I don't know if the question was asked on our group, but I 
don't believe anybody was talking about being at war in a 
sense. We are in a war footing. I don't think those words were 
used then. They are now being used. I mean, at least to me and 
maybe to my constituents back in Nebraska, that being on a war 
footing is a more significant effort than not. And I guess that 
would be my--would you agree with that?
    Secretary Carter. I used the words in the simple sense as a 
reflection of the necessity and the seriousness of this 
business.
    Mr. Ashford. Thanks. And I would again just say, I think 
most everyone has said it here today, but the AUMF does seem to 
be the right way to go. So thank you very much.
    The Chairman. Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman.
    And thank you, gentlemen, for your service to our country.
    I think one question I had when--maybe we are slow to 
initiate it, but I am very glad right now that we are focused 
on their--the infrastructure of the country, whether the oil 
industry, I think the cement industry was mentioned, those 
sources of revenue that support the regime. But one of the 
things that was talked about was that we don't want to do this 
sort of catastrophic destruction of particularly, say, the oil 
industry, because it would be difficult to reconstitute in the 
future when ISIS is gone.
    However, as a Gulf War veteran, I sort of remember what 
Saddam Hussein did to the oil industry in Kuwait, and yet they 
were able to reconstitute that after the war. And so could you 
address to me why we simply don't do that sort of catastrophic 
destruction of the oil industry to completely cut off their 
revenue, that revenue source, Mr. Secretary?
    Secretary Carter. Sure. I will start and then the Chairman 
can pitch in.
    Well, there is a balance to be struck there, but the 
critical thing is intelligence. And there we have had gained 
the insight that allows us to distinguish to a very large 
extent that part of the energy infrastructure which is being 
directly exploited from ISIL from that part which is benefiting 
the population at large. That is a distinction that is based 
upon intelligence and underlies our striking.
    You may remember an early period, and this does precede the 
time when Chairman Dunford took over, but we were striking 
parts of the energy infrastructure which were largely small 
scale, we thought, ISIL-operated refining facilities. That 
proved not to be very effective. But in the course of 
continuing to study this infrastructure, we have learned which 
parts directly affect them, and we are striking them, and we 
think that is going to have an effect on their revenue stream.
    Let me ask Chairman Dunford.
    General Dunford. Congressman, I think we can have it both 
ways. With the right intelligence and precision munitions, we 
can conduct destruction that will deny ISIL the use of these--
of this infrastructure and yet leave it in a condition that at 
some point in the future it can be regenerated.
    Mr. Coffman. Okay. Well, I would suggest to you that part 
of the strength of ISIS is their ability to govern these 
territories, and part of that is their ability to sustain the 
economy. And so a collapse of the economy, I think, hurts their 
ability to govern and further degrades them.
    Let me ask a question about the Syrian refugee issue, and 
that last July, Turkey and the United States agreed in general 
terms on a plan that would provide a safe zone along a 60-mile 
strip of northern Syria along the Turkish border. The United 
States would provide the air power component of that, and 
Turkish and possibly Syrian insurgent forces would work 
together in terms of ground security.
    Where are we at with this? Because it would seem to me that 
a lot of the Syrian refugees would like to stay in Syria, and 
if we could create safe zones for them, that would obviously 
give them the ability to do that. Mr. Secretary.
    Secretary Carter. Thank you, Congressman. The idea of 
humanitarian zones, safe zones--by the way, no-fly zones--zones 
of various kinds are concepts that we have studied over time, 
and I will start with some of the considerations that have gone 
into that and why we have judged the costs of doing so greater 
than the benefits.
    But let me start with the benefits of a safe zone. The 
benefit for a safe zone would be a place where people who 
wished to move there could move there and be protected. Now, 
one has to be careful about who might wish to move there, 
because people might want to live where they live, and also we 
wouldn't want to create a situation in which people were 
expelled from countries to which they had moved into a safe 
zone by countries that didn't want them. That is an undesirable 
outcome.
    From a military point of view, and I will let General 
Dunford elaborate on this, one would need to anticipate that 
such a zone in Syria would be contested. It would certainly be 
contested by ISIL, who would want to prove that it wasn't safe, 
and possibly elements of the regime who would want to prove it 
is not safe if it is on Syrian territory. So it ends up being a 
substantial military operation.
    The Turks, we have discussed things like that with the 
Turks. They have not offered a force of the size that would do 
that.
    So let me stop there and ask General Dunford if he wants to 
elaborate on that. We have definitely considered those 
possibilities.
    The Chairman. General, if you have a brief additional 
comment.
    General Dunford. Nothing.
    The Chairman. Okay.
    Mr. Coffman. Mr. Chairman, I would like that for the 
record, please, if they----
    [The information referred to was not available at the time 
of printing.]
    The Chairman. Yeah. Well, it is a complex subject that 
would definitely take more time.
    Mr. Moulton.
    Mr. Moulton. Thank you, Mr. Chairman.
    And, gentlemen, I want to thank you for your service, your 
patriotism, and your wisdom, and appreciate all that you do for 
us in our national defense. I particularly feel confident to 
have a leader of marines at the helm with the new Chairman.
    As a recent Iraq veteran, I am concerned about the fact 
that 5 years after we left we now have go to back, and in my 
new role on this committee I want to make sure that we get it 
right this time and after we do militarily defeat ISIS we don't 
find ourself putting troops back into Iraq again for a third or 
fourth time.
    So, Mr. Secretary, can you just tell us, what is the 
mission statement right now for the operation in Iraq?
    Secretary Carter. Well, Congressman Moulton, you are 
getting to the heart of our strategy, and this is not only the 
part that is essential, but also the part that makes it 
difficult to achieve, and that is that we want a victory over 
ISIL that sticks. And that means forces that participate in the 
recapture of territory and thereafter govern it in a decent 
manner so that we don't have a new wave of ISIL or ISIL coming 
back.
    That is necessary in both Iraq and Syria. Those are two 
different cases. But that is why we pursue multisectarian 
governance, decentralized multisectarian governance in the 
state of Iraq and why we are trying to find a political 
solution to the Syrian civil war, because while it is important 
to defeat ISIL, it is important to defeat them in a lasting 
way. And that is a critical part of the strategy and the reason 
why we are so intent upon identifying and enabling capable and 
motivated local forces.
    Mr. Moulton. Chairman Dunford, can you just answer that 
question? What is General McFarland's mission statement?
    General Dunford. To disrupt, to degrade, and to defeat 
ISIL.
    Mr. Moulton. And so my concern is that we haven't seen 
enough integration of the political side here, that we don't 
have a political plan that really underlies what our military 
mission is. And we have heard that from--the need for that from 
General Petraeus, General McChrystal, Ambassador Crocker, 
people on the left and the right who have testified before the 
committee and written about this problem in the press.
    Can you speak a bit to that coordination, that planning, 
and your confidence that General McFarland and others on the 
ground can see a political end state that will stick and make 
all their military efforts worthwhile?
    General Dunford. Yeah, Congressman, it is a great question. 
And, frankly, what you said a minute ago about not wanting to 
go back in 5 years is something that we all feel strongly 
about, which is why right now, as difficult as it would be, I 
do support the objective of a multisectarian unified Baghdad, 
because I see that as the best prospect for a stable, secure 
Iraq that would not be a sanctuary for violent extremism in the 
future. So as difficult as it is, I think that is a fair 
objective.
    Clearly, there are many difficulties in pursuing that, not 
the least of which is the Iranian influence. But General 
McFarland is working very closely with Ambassador Jones--you 
have probably been over to visit them--to enable the Abadi 
government to stand up on its own, to provide the kind of 
support it needs to be independent, independent of influence 
from outside actors, particularly the malign influence of Iran.
    So the overall objective to me is clear, but the path to 
getting there is difficult at best. But, again, I don't 
personally have a better idea than to enable the current 
Government of Iraq to be successful, to provide the kind of 
stability and security within which we won't see organizations 
like ISIL. And if at any point in the future, Congressman, I 
believe that that assumption that we can get there no longer 
obtains, then I would recommend a completely different campaign 
plan to get after ISIL inside of Iraq.
    Mr. Moulton. Are you receiving the support and involvement 
of the State Department necessary to achieve those political 
ends?
    General Dunford. I believe we are. In fact, since I have 
been in the job now we have had two separate meetings with 
Department of Defense leadership and Secretary Kerry, and we 
meet about every 3 or 4 weeks on specific issues in the 
campaign.
    I think it is fair to say that there was a recognition, 
Secretary Carter and Secretary Kerry recognized that we weren't 
as integrated across the government as we should be. And so 
about 2 months ago we began to meet on a periodic basis to 
attack specific issues. So far, the oil issue is actually an 
outcome of the first meeting that we had, and the most recent 
meeting was on foreign fighters, because that clearly requires 
a whole of government.
    But, again, I would tell you, am I satisfied with the level 
of integration? No. We are working on that. Am I satisfied that 
it is going to be easy to get after the desired political end 
state in Iraq? No, I don't think so. I think it is going to be 
a hard slog. But the cardinal direction to me is clear.
    Mr. Moulton. General, I just have a couple seconds left. If 
we had retained that level of integration after 2009, would we 
be in the mess we are today in Iraq?
    General Dunford. It is fair to say that conditions would be 
much different.
    Mr. Moulton. Thank you. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Gibson.
    Mr. Gibson. Thank you, Mr. Chairman.
    I appreciate the witnesses being here today. Thank you for 
your leadership.
    I am going to be moving in a direction actually similar to 
Mr. Moulton. Let me just state up front, strategy, ends, ways 
and means, the administration has been under fire in the media 
to some degree because there is the claim that the strategy is 
the same. Well, ends may be similar. I am hoping that I get 
clarification that ways and means are changing, because if we 
are just doing the same thing, you know, I don't see how the 
end result is going to be any different.
    The vantage point, I had multiple tours in Iraq myself, 
including the culminating one as the G3 of Multinational 
Division-North, so I am very keenly aware of the challenges in 
many regards, including the political-military challenges in 
Iraq. But let me say this, that I associate myself, I think, 
many of the opening remarks that you made, Mr. Secretary, I can 
attest to. You know, you talked about how there needs to be 
more Sunni inclusion in this state. I was very frustrated that 
in the period when Iraq was unraveling, Mr. Maliki certainly 
leading in a very corrupt and sectarian way, I didn't feel that 
we were using the leverage, the ways and means, I didn't think 
that we were using our leverage, I thought was fairly 
significant, given the fact that Iraq gets a vote, but we still 
had leverage I didn't think that we had used in the political-
military sphere.
    Now, my question has to do with this interagency process, 
which I recognize you are only a part of, but you are a major 
player in that process. So I would like to know about three 
different areas, Iraq first. What is different in terms of our 
leverage so that we can bring it to bear, especially given this 
period where we have a new leader in Iraq where I think we can 
shape this relationship so that we will see some of the things 
that you laid out in your initial testimony, that it would 
actually come to fruition?
    On Syria, I completely concur that a political transition 
is necessary. I am interested to know, we had Geneva I, Geneva 
II, what vehicles are we going to use, might we create, so that 
we can get some compellance on that score?
    And then thirdly, worldwide, I, again, agree that the long-
term issue is cutting off the ability to recruit and fundraise 
for this enemy, who really is fraudulent, says they advance the 
cause of Muslims. Nothing could be further from the truth. No 
one kills more Muslims than the Islamic State. So, again, in 
terms of ways and means, what is different in this strategy 
that we think that we are going to make progress?
    Secretary Carter. I will start, Congressman, then maybe if 
the Chairman wants to.
    First of all, thank you for your own service. Appreciate 
that.
    And to your next point about reconstituting our leverage in 
Iraq, that is precisely the point I was making earlier, and I 
think General McFarland is doing that. That is important both 
to have insight and to wield our political-military leverage in 
Baghdad. That is important.
    And as to also agree with you, Prime Minister Abadi, as 
against--as opposed to Prime Minister Maliki, gives us more 
opportunities to do that. And so that is very important. And we 
do try to leverage that both in our military ways and in our 
political, our assistance, our marshalling of international 
assistance. So we do have leverage in Baghdad.
    Mr. Gibson. Mr. Secretary, if I could just for one second. 
I appreciate the comment. What I am looking at is are we using 
metrics? So that, you know, we are sitting side by side with 
them and being very clear in our communication that the funding 
that they are getting by the good will of the American taxpayer 
is at risk and they will lose it if they don't show progress on 
these metrics. That is the kind of leverage I am talking about.
    Secretary Carter. Well, that is the kind of leverage I am 
talking about too, and the answer is yes.
    And let's start with Iraq. And then, Chairman.
    General Dunford. Congressman, you asked about ways, so just 
some of the ways that are different in metrics. I will just 
answer the metrics one quickly. One example is the specific 
number of Sunni that we think need to be integrated and trained 
is a metric, and we are working that with the Iraqi Government. 
That is a recognized objective, and they know our support is 
contingent upon them meeting certain conditions.
    In terms of ways, just to recapture some of the things we 
spoke about today, special operations forces in Syria is a 
different way. The expeditionary targeting force that will be 
deployed to Iraq is a different way. The foreign fighter 
initiative that has taken place over the past couple of weeks 
between the State Department, the Department of Defense, the 
CIA, the FBI, Homeland Security, and so forth is a different 
way to approach the foreign fighter challenge, and that is 
something that over the last 3 or 4 weeks where I have seen a 
much more concerted effort and a will to start to work that 
issue, recognizing how important it is.
    And probably the last one is the more comprehensive 
approach that we are taking to go after the revenue sources is 
another way that is different from the past.
    The Chairman. Mr. Gallego.
    Mr. Gallego. Thank you, Mr. Chair.
    Secretary Carter, I am trying to piece together what it 
actually means to have an expeditionary targeting force. You 
know, without going obviously into too much detail and 
violating OPSEC [operational security], what does this mean? Is 
this a constituted group of Iraqi soldiers? Are we talking 
special forces? What exactly is this? Tac [tactical] teams? 
This is kind of just thrown on us today, so I think we would 
like to know a little more what we can, what is this, what are 
you envisioning here?
    Secretary Carter. I will. I want to avoid some detail. But 
this is a force that is either American only, but more likely a 
mixed force. And to give you two examples, so this doesn't tell 
you anything about our plans going forward, but the two 
examples I gave were the rescue of the individuals who were 
about to be hostages, or prisoners really, who were about to be 
executed by ISIL. That was accomplished with Kurdish forces, a 
mixture of U.S. and Kurdish, and achieved its objectives, 
although it required the sacrifice of one heroic American to do 
that. Another example is the killing of Abu Sayyaf and the 
capture of his wife. So those are two examples that have been 
disclosed of exactly that kind of capability.
    Now, imagine that on a standing basis, being able when 
occasions arise, and that really means intelligence fed, to 
conduct raids like that anywhere in the territory of Syria and 
Iraq. That is what we are talking about. And that is, as the 
Chairman says, a new way of achieving our objective there, one 
of several, and there will be more.
    Mr. Gallego. Okay. And a follow-up question: What is the 
status on Ramadi and Mosul? We have been hearing about the 
Iraqis and Kurds surrounding and then for months working on 
surrounding and getting closer and closer to Ramadi, but still, 
you know, we are waiting for them to move.
    And, you know, I worked with Iraqi soldiers too in the ING 
[Iraqi National Guard], and they are just as good as their 
leadership is. And to see them dilly-dallying to take these two 
major cities I think is very frustrating for many of us, 
including a lot in the public. So I would love to have a status 
of what is going on besides the usual they are working at it.
    General Dunford. Congressman, I think I share your 
frustration, as do the commanders on the ground. They would 
tell you today, and this is something we get an update on every 
day, that over the past several weeks, I mean, real progress in 
terms of on the ground, real progress in kind of tightening the 
noose around Ramadi has taken place. But it has certainly not 
moved at the pace that we would want to see it move. And we are 
prepared, frankly, to provide more support to reinforce the 
success that the Iraqi Security Forces have in Ramadi, but they 
haven't moved as fast as we want it to move. And so, you know, 
the progress that has been made over the last several weeks, 
while real, is not necessarily significant.
    And Mosul is a future operation for Iraqi Security Forces. 
Right now the focus is on Ramadi, once Ramadi is taken. 
Recently, as the Secretary outlined, if you start thinking 
north of Baghdad, Baiji has fallen, the Peshmerga have been 
successful up in Sinjar area, so you are starting to close the 
noose. We have cut the lines of communication at Sinjar between 
Mosul and Raqqa.
    So Mosul is a future operation. Probably--I wouldn't affix 
a date to it--but probably sometime months from now as opposed 
to weeks from now we would start to see operations in Mosul.
    Mr. Gallego. Thank you.
    The Chairman. Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here and thank you for your 
service to our country, and I certainly respect you and trust 
you. If you tell me something, I believe it is true. And I know 
there were some frustrations expressed earlier.
    I guess as just kind of a simple thing, just a couple of 
weeks ago this committee was in classified briefings. The next 
day the Obama administration came out and announced what they 
considered a strategy of sending 60 troops, 60 special 
operators into Syria, but they did not have the opportunity to 
discuss that with Congress, because Congress was on vacation. 
That was an absolute lie from the administration. We had been 
in meetings the day before, and they withheld that from us.
    And so when it comes to those types of issues, it would be 
helpful if other people in the administration would be honest 
with this committee. We take this job very seriously, just as I 
know you two do as well.
    With regard to ISIS, ISIL, Daesh, whatever we want to call 
them, Secretary Carter, you made it very clear we are at war, 
Secretary Hagel said we are at war well over a year ago with 
them. The President disagreed with that assessment at that 
time. I do think he has come around to that now. But it seems 
that our military lines are conflicting with the goals of the 
Secretary of State, who wants a political solution. Political 
solutions can take decades, and I would respectfully submit 
that the longer we allow ISIS to grow while we are waiting on 
that political solution, the harder it is going to be to defeat 
them militarily.
    So Secretary Kerry testified before this committee that 
they had been working for years to undermine Assad and to move 
him out. Has Secretary Kerry indicated to you who he would like 
to replace Assad, since they have been working to move him out?
    Secretary Carter. I don't want to speak for Secretary 
Kerry, but I do know that in those negotiations, dating back 
now years, the United States and Secretary Kerry, among others, 
has discussed with the other parties that have a stake and a 
voice how Syria would be governed post-Assad. That involves 
both the naming of names, and I can't repeat them for you, but 
most importantly that the structures of the state of Syria that 
have not been associated with the oppression of their people 
but that can be part of responsible governance in Syria going 
forward are preserved under new leadership. That is the key to 
the political transition.
    And to your point about the difficulty of that, you bet it 
is difficult, because that is why a civil war has been raging 
there for several years. But in order to have an end to ISIL in 
the territory of Syria that sticks there needs to be that 
political transition. That is why the military and the 
political----
    Mr. Scott. If I could interrupt. I am sorry. Well, so there 
is no plan for who would replace Assad, just that they want to 
replace Assad. But it would be just as complex, would you not 
agree, as finding leadership in Iraq that would be accepting of 
religious minorities?
    Secretary Carter. Again, I don't want to speak for 
Secretary Kerry, but these are exactly the kind of talks that 
he is having with the Russians, the Iranians, and others so 
that there can be something that replaces Assad that provides 
decent governance for the state of Syria, which, Lord knows, 
really deserves it.
    Anything you want to add to that?
    Mr. Scott. I think it would certainly be wise for us to at 
least engage in honest dialogue with the Russians. If there is 
going to be an effort to remove Assad, they certainly--that 
dialogue should be occurring at the highest levels among our 
countries.
    Secretary Carter. It is.
    Mr. Scott. I want to switch gears for just a second and 
talk about the recapitalization program. Obviously we are 
involved in a tremendous number of countries, tremendous need 
for intel, the recapitalizations and the importance of the 
JSTARS [Joint Surveillance and Target Attack Radar System]. I 
just wanted to mention that because of the--if we wait much 
longer on that, Mr. Secretary, we are going to end up with a 
gap in that capability because of the major depot maintenance 
that the current units are going to be going through. So I know 
our combatant commanders need the JSTARS, and I just--I hope 
that we can move forward with that recapitalization sooner 
rather than later.
    Secretary Carter. It is an important issue in our budget 
discussions going on right now looking forward to the 
submission of our fiscal year 2017 budget, absolutely.
    Mr. Scott. Well, thank both for being here, and I respect 
both of you. I would ask that you use your credibility with the 
administration and encourage them to be more open and honest 
with us.
    The Chairman. Mr. O'Rourke.
    Mr. O'Rourke. Thank you, Mr. Chairman.
    Mr. Secretary, to go back to some comments and questions 
that you answered earlier, if we are in fact at war how will we 
know when we have won?
    Secretary Carter. The destruction of ISIL entails their 
expulsion from any territory they claim to occupy and their 
destruction elsewhere around the world, including their various 
branches and so forth. That is what is needed.
    Mr. O'Rourke. So as long as ISIL is in Iraq or Syria or 
Libya or Afghanistan or anywhere else in the world, we will 
still be at war?
    Secretary Carter. I believe that in today's world these 
threats are difficult to confine to one place, and that is the 
reason why we have to go there and why we have to go to Syria 
and Iraq and strike at it and strike at other places where it 
is. It is in the nature of today's world, mobility among 
peoples, you see that underlying this, and above all, mobility 
of information, which can radicalize people who have never gone 
anywhere except on their keyboard.
    Mr. O'Rourke. I think it is important if we are at war to 
define in the clearest, most precise terms what victory looks 
like. With 14 years of Afghanistan in mind, with the fact that 
we have been in Iraq off and on since 2003, or you can take it 
all the way back to 1991, to keep us out of perpetual war, I 
think it is really important that we explicitly define the 
objectives and the outcomes for which we are fighting. I think 
we owe that to our service members. I think we owe that to 
ourselves. And I would hope that we could come up with a better 
definition of victory and success.
    I appreciate that you acknowledge the importance of 
political and diplomatic components of a solution in Iraq or in 
Syria, but I am interested in your response to a question asked 
by Mr. Gibson in terms of conditionality. There is so much in 
those countries, we will just use Iraq as an example, that we 
do not control and cannot control and will not be able to 
predict when it comes to the political outcomes. And so when we 
say that we are going to set conditions on our aid, when we say 
that we are going to set conditions on our military presence, 
do we really mean that? Is that a viable threat? Will we really 
walk away from Iraq if the government there doesn't meet those 
conditions?
    And I think that is an important question, because if, in 
fact, we will not, then I wonder what the motivation is for the 
Iraqi Government to take the very important and very difficult 
steps to integrate these other minorities, whether they be 
Kurds or whether they be Sunnis, into a functioning government, 
decentralized or otherwise.
    Secretary Carter. First of all, with respect to the first 
part of your question, your point exactly gets back to the 
military and political going together, because in addition to 
the--the only end state that involves the lasting defeat of 
ISIL is one in which there--where there is local governance 
that cannot be once again supplanted by ISIL. That is why the 
political and the military go together, that is at the heart of 
the strategy, and that is why enabling capable and motivated 
forces who can make victory stick is the other part of the 
definition of victory critical to the strategy.
    With respect to the leverage, I will start there in 
Baghdad. But the leverage involves offering to do more for 
those who are pursuing the same objectives and withholding our 
support from those who are taking a different path or not going 
down the path they are supposed to. So we find alternatives, we 
find people who will act if the people that we are dealing with 
are not capable of that, because we have to act, and we will 
find such forces that are capable.
    Mr. O'Rourke. Very quickly for General Dunford, what does 
ISIS want us to do and how does that factor into our strategy 
in confronting them?
    General Dunford. ISIS wants us to be impetuous right now as 
opposed to be aggressive, and they would love nothing more than 
a large presence of U.S. forces on the ground in Iraq and Syria 
so they could have a call to jihad.
    Mr. O'Rourke. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Nugent.
    Mr. Nugent. Thank you, Mr. Chairman.
    And I want to thank Secretary Carter and General Dunford 
for being here today.
    You obviously have a tremendous task, from everything you 
have said, the diversity of what you are trying to accomplish. 
I think what you heard from members here is that we have some 
concern about whether or not we have the right strategy in 
total.
    But, needless to say, Russia just added a different 
dimension by putting forward their advanced surface-to-air 
missiles. How does that change, if we are talking about a no-
fly zone along Turkey, how would that change that dimension for 
us? Do they gain a higher ground on us at this point?
    Secretary Carter. Congressman, in view of the fact that the 
Chairman just spoke yesterday to his counterpart in Russia, let 
me ask him to answer that.
    General Dunford. Congressman, under the current conditions, 
we have a memorandum of understanding with the Russians that 
ensures our safety of flight. And, again, we are not 
complacent, we don't take it for granted, but it has been in 
place now for over a month, and the Russians have complied with 
it. And as I mentioned earlier, I spoke to my counterpart as 
recently as yesterday to ensure that the Russians reaffirmed 
their commitment to the memorandum of understanding.
    But you are asking a hypothetical scenario, for example, 
were we to have a no-fly zone and were we then by having a no-
fly zone to have declared war against Syria, because that is 
what we would be doing if we declared a no-fly zone, 
particularly with accompanying ground forces to protect 
refugees, as has been suggested, then we could expect that that 
would complicate then the situation inside of Syria.
    That is a hypothetical. I mean, today I am confident that 
we can prosecute the campaign against ISIL. If we were at war 
against Syria and Russia was supporting Syria, the presence of 
the SA-21 clearly complicates the situation. It doesn't mean we 
can't deal with it, but it complicates it.
    Mr. Nugent. I appreciate that.
    Going back on November 7 at the Reagan National Defense 
Forum, former Under Secretary of Defense [for] Policy Michele 
Flournoy argued that putting cards in our hand, in that Syria, 
so the outcome of any political negotiations support U.S. 
interests. Condoleezza Rice and Robert Gates argued in The Wall 
Street Journal that we must create a better military balance of 
power on the ground if we are to seek a political solution 
acceptable to us and our allies.
    And, General Dunford, you testified in front of SASC 
[Senate Armed Services Committee] on October of 2015 and you 
said, ``I think that the balance of forces right now are in 
Assad's advantage.'' So my question is, does that still hold 
true, and if that is so, what steps should we take to change 
that advantage into our advantage?
    General Dunford. When I testified in October, Congressman, 
we didn't have any capable ground forces to prosecute the 
campaign inside of Syria. Since that time, we have developed a 
relationship with the Syrian Arab Coalition. When I say we 
didn't have any effective ground forces, the YPG <dagger> was 
there. We provided some limited support to them. We had other 
small number of forces that had gone through our original train 
and equip. But we didn't have a credible force that could 
actually conduct offensive operations.
---------------------------------------------------------------------------
    <dagger> The YPG, People's Protection Units, is a primarily ethnic 
Kurdish militia force based in northern Syria.
---------------------------------------------------------------------------
    Since that time, we do have now a force that has conducted 
successful offensive operations, most recently in a location 
called Al-Hawl. That is an organization, the Syrian Arab 
Coalition, of some 3- to 5,000, but part of a broader 
relationship with the YPG that probably runs north of 15- or 
20,000 forces. So we have sufficient forces to conduct 
offensive operations in Syria.
    Mr. Nugent. So does that change the balance, then, that you 
had referred to?
    General Dunford. It changes the balance. It changes the 
balance. But I would not say today that we have--you know, the 
correlation of forces is in anything other than Assad's favor 
in terms of protecting what he holds dear, which is the west 
part of the country, in his regime. He has the capability to do 
that with the support provided by Russia and Iran.
    Mr. Nugent. As we move forward, and I think most of us are 
concerned, and I am, particularly as a father of three service 
members, is, you know, are we going to be in the same position, 
and I think you have heard this echoed before, if we pull out 
of Iraq again? You know, are we going to be in the same 
position that we find ourselves today or are we going to 
actually keep a residual force in Iraq to assist with the train 
and equip mission of the Iraqi forces? Do we see us doing that, 
keeping additional forces in Iraq, if we defeat ISIL?
    General Dunford. Congressman, all I can talk to you about 
is the recommendations that I would make at the time. And 
certainly I think we have enduring interests in the region, we 
have an enduring interest in the stability and security of 
Iraq, and any recommendations I make subsequent to the defeat 
of ISIL would reflect those interests.
    Mr. Nugent. I appreciate that, General. Thank you very 
much.
    The Chairman. Okay. I think we have five more members. 
Hopefully not everybody will take 5 minutes. Are you all okay 
with that? Mr. Secretary, does that work with your----
    Secretary Carter. Excuse me. Let me just check, because I 
know I am traveling somewhere and have a--I am sorry, Mr. 
Chairman. It is just that there is another thing I need to do, 
a flight I need to take.
    The Chairman. No, I know. That is why I am asking.
    Secretary Carter. But let's keep going, and if I need to 
leave, Chairman Dunford just indicated he would be willing to 
stay a little bit longer.
    The Chairman. Man, that is taking one for the team.
    Ms. Gabbard.
    Ms. Gabbard. Thank you, Mr. Chairman.
    Thank you both for your service.
    Since our policy to overthrow the Syrian government of 
Assad has brought us really into a potential direct head-to-
head military conflict with Russia, I have some important 
questions along this line. Approximately how many nuclear 
warheads does Russia have aimed at the U.S. and the U.S. have 
aimed at Russia?
    Secretary Carter. Congresswoman, I will get you those 
precise numbers as best we know them.
    [The information referred to was not available at the time 
of printing.]
    Secretary Carter. Let me just summarize it by the fact that 
we have, I am confident, a strong, safe, secure, and reliable 
deterrent, but it is also true that Russia, like the Soviet 
Union that precedes it, has a massive nuclear arsenal.
    Ms. Gabbard. Right. And it would be accurate to say that 
both of our countries have the capacity to launch these nuclear 
weapons within minutes?
    Secretary Carter. We do.
    Ms. Gabbard. I have seen pictures, films, and images from 
Nagasaki and Hiroshima, I know you have as well. And I presume 
you would agree with me that nuclear war would be devastating 
to the American people. The amount of suffering that it would 
cause and devastation to our families, our children, our 
communities, our planet, our future generations is difficult to 
imagine. So I am wondering if there has been an assessment on 
how many lives would be lost and the damage that would be done 
if this nuclear war between our two countries were to occur?
    Secretary Carter. Congresswoman, I have been doing this for 
a long time, including during the Cold War, and working on 
nuclear weapons since the beginning of my career. And to answer 
your question, there have been estimates made right along, when 
there was a Soviet Union, then a Russia, and it is a very 
simple story. It is, as you say, nuclear war would be an 
absolutely unprecedented and catastrophic--result in 
catastrophic destruction. That is why deterrence is so 
important. That is why prudence in the field of nuclear matters 
by leaders all over the world is so essential.
    Ms. Gabbard. So the fact that we now have our F-15s 
patrolling the Turkey-Syria border with a primary air-to-air 
combat operation, there is no air-to-air combat against ISIS, 
they don't have any air assets, so I can only presume that the 
purpose of these planes would be to target Russian planes. Is 
that accurate?
    Secretary Carter. Congresswoman, let me answer your 
larger--the point you began with, which is we have a different 
view, a very different view from Russia about what would be 
constructive for them to do in Syria. We have that 
disagreement. We can't align ourselves with what they are 
doing. We are opposing and want them to change what they are 
doing in Syria.
    That is not the same as the United States and Russia 
clashing. I think that the Chairman and his counterpart in 
Russia just talked yesterday about making sure that we didn't 
by accident have any incident involving U.S. and Russian 
forces.
    So we have a sharp disagreement there, but that is not the 
same as blundering into an armed situation with one another----
    Ms. Gabbard. But that sharp disagreement--I only have a 
minute here--that sharp disagreement with two diametrically 
opposed objectives--one, the U.S. seeking to overthrow the 
Syrian government of Assad, Russia seeking to uphold the Syrian 
government of Assad--creates that potential, that strong 
potential and strong likelihood for that head-to-head combat or 
that head-to-head military conflict. And Russia's installation 
of their anti-aircraft missile defense system increases that 
possibility of, whether it is intentional or even an accidental 
event, where one side may shoot down the other side's plane. 
And that is really where the potential is for this devastating 
nuclear war, for something that could blow up into something 
much larger.
    Secretary Carter. I have to correct something, 
Congresswoman, that you said, which is that I would 
characterize Russia's perspective differently. And, by the way, 
what they say and what they do are two different things. What 
they said they were going to do was fight ISIL and pursue a 
political transition and not support Assad endlessly, but 
instead try to pursue a political solution. What they have done 
militarily has had the effect of supporting Assad, no question 
about it, and they haven't gone after ISIL, they have gone 
after moderate--that is our source of disagreement.
    We are having that disagreement and trying to get them to 
come around, that is what Secretary Kerry is doing, to a more 
reasonable and constructive position, but at the same time, as 
the Chairman's efforts indicate, we are, and the Russians agree 
with this, intent upon avoiding an accidental situation in the 
air over Syria.
    The Chairman. Dr. Wenstrup.
    Dr. Wenstrup. Thank you, Mr. Chairman.
    I thank you gentlemen both, not only you, but your 
families, for the sacrifices you make to help defend this 
country, and it is appreciated.
    Mr. Secretary, you said that, you know, we will win, we 
will defeat ISIS. You said that here today. So I want to ask 
General Dunford, in that strategy, what is our center of 
gravity really here in this fight to defeat ISIL?
    General Dunford. The center of gravity for ISIL?
    Dr. Wenstrup. Yes, sir.
    General Dunford. The center of gravity for ISIL, in my 
assessment, is the existence of a caliphate. Critical 
capabilities include their narrative and also the manpower that 
they have. So those are the three primary sources of strength, 
if you will, and the existence of the caliphate is there.
    But to define defeat, what I would say, because there was 
discussion earlier, what we want to ensure is that ISIL does 
not have the capability to conduct external operations that 
present a risk to the American people or our allies.
    Dr. Wenstrup. So you feel we are going after those factors 
that make up the center of gravity?
    General Dunford. We are going after their critical 
capabilities to include their center of gravity, which is, 
again, the existence of the caliphate, the fact that they have 
a narrative. And when I talked about foreign fighters, that is 
a piece of this manpower issue, meaning we are keeping them 
from having the manpower necessary to fight.
    Dr. Wenstrup. I understand. We talked about the coalition, 
and it was mentioned before we have, like, 60-some nations as 
part of the coalition. France has been part of this coalition, 
but obviously they have stepped up. Sixty nations, I imagine 
some of them may be just contributing a box of pencils or 
something, because we really don't hear much of what they are 
doing.
    Do you feel like we are doing enough diplomatically to get 
these 60 nations fully engaged in this battle of good versus 
evil that we are engaged in, because we would really like to 
see these other nations engaged, especially our Middle Eastern 
allies, if we are going to see victory in this.
    Secretary Carter. We need more contributions from the 
members of the coalition. You are right, it is good to have 
political support. It is good to have such widespread political 
support. Just about everybody in the world recognizes that ISIL 
is an evil thing and ultimately a threat to them.
    But they are not backing up, as we are trying to back up, 
our words with deeds. And we are in there swinging. And we need 
more who are in there swinging with us. And that, in my mind, 
applies particularly to those countries that reside in the 
region itself. We are a long way away, and we are concerned, 
and we are doing our part, and they are right there.
    Dr. Wenstrup. I know it is not totally your lane for that 
component of the fight, but I do think that we need to put more 
pressure on State Department, or whoever, to gain more support 
physically from our allies.
    A quick question, if I can, General Dunford. As far as 
congressional notifications of Guantanamo detainee transfer 
decisions, have you or General Dempsey before you not concurred 
with any of those?
    General Dunford. I have not. I have only had two cases 
since I have been the Chairman, and I concurred with both.
    Dr. Wenstrup. Did General Dempsey, do you know?
    General Dunford. I believe that he may have. I wasn't 
there, Congressman.
    Dr. Wenstrup. So I would have to ask him.
    And we have been waiting for a plan on that. Does the delay 
in the plan have anything to do with the cost of closing 
Guantanamo, of transferring patients to the United States? Do 
you know if Office of Management and Budget [OMB] have had 
anything to say on that, what their estimates have been?
    Secretary Carter. Well, cost is one of the considerations 
in the proposal. Just to relate the whole story, we are working 
to put together a proposal which we would submit to the 
Congress.
    Dr. Wenstrup. Has OMB done one at this point? Have they 
done one at all?
    Secretary Carter. They have worked with us on the cost 
estimates.
    Dr. Wenstrup. What did they come up with?
    Secretary Carter. Well, there is a range depending upon 
where the permanent detention facility would be and what its 
nature would be. So there is a lot of work needs to be done on 
that.
    Dr. Wenstrup. Some idea? They did one.
    Secretary Carter. Well, the objective is to--I mean, let me 
just start from the beginning, which is that you talked about 
transfers. But there are people in the Guantanamo Bay detention 
facility who will not be transferred. It is not safe to 
transfer them. And those are the people that we are talking 
about detaining under Law of War detention. Now, we would like 
to do it in a way that costs less and takes fewer of our people 
to----
    Dr. Wenstrup. I guess what I am asking, I am trying to 
determine----
    Secretary Carter. And OMB has been helping with that, yes.
    Dr. Wenstrup [continuing]. Trying to determine what the 
cost is of holding them in the U.S. versus at Guantanamo.
    Secretary Carter. Exactly.
    Dr. Wenstrup. I believe they have done a study. I was 
curious what they----
    Secretary Carter. Exactly they have, and that will be part 
of the proposal that is brought to you.
    Dr. Wenstrup. Thank you. I yield back. I appreciate it.
    The Chairman. Mr. Byrne.
    Mr. Byrne. Thank you very much, gentlemen, for your 
patience. I know you have sat through here for a lot of 
questions.
    Mr. Secretary, you said in your comments that President 
Obama is committed to doing what it takes as opportunities 
arise, as we see what works, as the enemy adapts, until ISIL is 
defeated in a lasting way.
    The President is the only Commander in Chief that we have 
got. We can't be the Commander in Chief. Under our 
constitutional form of government, you have to report to him. 
But this President has said that ISIL is a JV [junior varsity] 
team. The day before the Paris attacks, he said they were 
contained.
    You are an honorable man. You believe every word that you 
are telling us, I understand that. When I go to the Middle 
East, when others of us go to the Middle East and talk to 
leaders there, they say there is a lack of American leadership 
and that is a problem. I don't think that lets them off the 
hook, by the way. I think that they have a role that they 
should play and they need to step up.
    But you made those comments, and to people like me who 
doubt the President is committed--and I have a lot of 
constituents that doubt it, I think some of our friends in the 
Middle East doubt it--what would you say to me and to people 
like me that have doubts that he truly is committed?
    Secretary Carter. Congressman, the only thing I can say is 
to repeat what I have said before, which is President Obama has 
given his approval to all of the acceleration steps that I 
described to you today, many of which were devised by, let 
alone recommended by, the Chairman, CENTCOM, our military 
leadership. So every time we have turned over a new way of 
attacking ISIL, we have gotten the President's approval. That I 
can tell you.
    And to your point about American leadership, I agree with 
you. I think American leadership is critical. On the other 
hand, we need followers too, and we need to insist upon that. 
But American leadership is still important, very important. It 
is critical. We not only have the finest fighting force the 
world has ever known, but we have values that people find 
attractive. That is why we have so many friends and allies. But 
we need them to do more alongside our excellent men and women 
who are in the fight.
    Mr. Byrne. Mr. Secretary, let me ask you another question. 
You were talking in response to some other questions about a 
possible new AUMF. When your predecessor Secretary Hagel was 
here we had a discussion then, and he had his lawyer with him. 
So this may be a question that you want to refer to your 
lawyer.
    I have looked at the two AUMFs that are out there. I am not 
a military person, but I am a lawyer, so I think I can look at 
them and understand them. But I don't think you have to be a 
lawyer to understand them. Now that you are telling us that we 
are sending special operations forces into Syria, can you tell 
me where in any one of those AUMFs there is the authorization 
to do that?
    Secretary Carter. Well, I am not a lawyer, but I read them 
too, so I can tell you the commonsense meaning of the provision 
and the only one that I am familiar with, which is the one the 
President submitted. And I was asked earlier one of the reasons 
why I thought it was--it was important to me that it allow what 
I thought was essential to defeat ISIL.
    Mr. Byrne. But that is the one we haven't adopted. I am 
talking about the ones that have actually been passed by 
Congress and signed by the President. Do they give you that 
authorization?
    Secretary Carter. I apologize. I can't speak to them. I 
don't know all of the other ones. I have studied the one that 
the President submitted.
    Mr. Byrne. Could you get your lawyers to respond to me on 
that? I am not asking you to give a legal opinion.
    Secretary Carter. Yeah.
    Mr. Byrne. But they have got some basis for thinking that. 
And I would say that the plain wording of those two AUMFs that 
have been passed by Congress and signed by the President don't. 
Now, I would like to give you that authorization. I want to 
make sure we give you whatever you need to do that.
    Secretary Carter. Happy to get back to you.
    [The information referred to was not available at the time 
of printing.]
    Mr. Byrne. The last question I have is about--and I 
completely agree with you. We need local forces, we need help 
from the region, and we shouldn't let anybody off the hook. Are 
you getting the sort of support that you feel--are we getting 
the support we should be getting from Turkey?
    Secretary Carter. I have been urging, actually since I came 
into this job, Turkey to do more. We need Turkey to do more. We 
need it to do more within its own territory so it controls its 
border, which it has not done effectively since ISIL first 
arose; that it goes after the facilitators, the enablers, and 
the other tentacles of ISIL that intrude into Turkey.
    We would like them to operate more both in the air and on 
the ground. Most of their air operations are not directed at 
ISIL. They are directed at the PKK [Kurdistan Workers' Party], 
which we understand their concern about. It is a terrorist 
organization within their borders. But we would like to see 
them do more against ISIL.
    Now, I know the President has spoken to President Erdogan 
about this as recently as in the last few days. So it is very 
much at the top of our list, and we would like them to do more.
    Their geography, I mean, they are right there next to Iraq 
and Syria, so they can be a potent source of enablement for us. 
At the same time, if they are not doing enough, it is a serious 
matter. And that is why the President is talking to President 
Erdogan.
    Mr. Byrne. Well, my time is up. But I want to thank you, 
both of you, for your service and for being here today.
    The Chairman. Ms. McSally.
    Ms. McSally. Thank you, Mr. Chairman.
    Thank you, gentlemen, for your service and your time today.
    Secretary Carter, we talked in June about, as an airman, my 
concerns about not using air power for all that it brings to 
the fight; my concern about doing that in a weak way. We sort 
of disagreed on that. But it seems like there has been a slight 
change since then. You know, ISIS' strength is that they are a 
state; their weakness is also that they are a state, as you 
mentioned General Dunford.
    I feel like part of our challenge is we are stuck in a 
counterinsurgency mindset, and although we need to have a force 
on the ground afterwards, we need to take them out as a state, 
not as a counterinsurgency.
    And the discussion of how you have been studying the oil 
infrastructure, I mean, this reminds me of air campaign 
planning I went through when I was a young officer. You 
identify their center of gravity, their critical capabilities 
or vulnerabilities, and then you unleash American air power in 
a way that overwhelmingly goes after them to defeat them in a 
way that takes away their capability.
    So I don't understand why that study wasn't done--it was 
done this spring--why that wasn't done 17 months ago when they 
declared a caliphate, or 15 months ago, or 10 months ago. I 
mean, we are just now realizing oil trucks are moving, and I 
mean, it has been reported since the very beginning. It has 
been a million dollars a day funding their terrorism. By my 
math, that is about half a billion dollars that potentially 
they have been put into their coffers to fund and export 
terror.
    So I am deeply concerned about the lack of using American 
air power for all it brings to the fight. We have averaged 
about 15 strikes a day. We have heard about cumbersome approval 
processes, unnecessarily high rules of engagement where, you 
know, pilots are going home and not hitting legitimate targets 
because we want no civilian casualties, as opposed to the Law 
of Armed Conflict, which is very clear, to hit those targets, 
hit them hard, and destroy and defeat them where they are.
    The concern and the problem is, I hear you are saying 
something has changed, but you mentioned a snowball effect. The 
snowball has been going in their direction for the last 17 
months. I serve on Homeland Security as well. We have got 
30,000 foreign fighters. We have got 200,000 pro-ISIS social 
media posts a day. We have 900 cases in all 50 States right now 
for homegrown extremists.
    It looks like they are taking on American air power and 
they are winning, and that has added to their propaganda, it 
has added to their metastasizing, it has added to the sort of 
romantic approach of recruiting people to join the fight. The 
only thing worse than not engaging is to engage weekly, and I 
really feel weekly--w-e-e-k--and I really feel that we have 
added to that by being weak on the military side.
    It sounds like you are saying things have changed, but in 
addition to the changes you mentioned, are we changing the 
cumbersome approval process? Can we feel a confidence that we 
are going to unleash and unshackle American air power and not 
just be in this limited sort of impotent mindset?
    General Dunford. Congresswoman, I think to the extent that 
you are asking are we going to unleash air power, we will. In 
terms of cumbersome approval processes, where we find those 
kinds of things, I can tell you and I can assure you, you know, 
I will help personally to try to cut through it. That is not 
what I am getting now.
    With regard to collateral damage, though, I don't think in 
this fight we should apologize for bringing our values to the 
fight in terms of collateral damage. So while we should 
absolutely be aggressive in attacking the ISIL, taking down 
their command and control, taking away their resources, taking 
away their fighters, at the same time I don't think we should 
be killing innocent people, which would merely feed the 
narrative of ISIL at the same time.
    So I think the strategic approach is exactly right, which 
is we go after all of those targets, but we do it in a uniquely 
American way, bringing our values to the fight with us. And I 
am not saying you are suggesting we would do otherwise.
    Ms. McSally. Of course, you always minimize collateral 
damage. I mean, that is what we do.
    General Dunford. So I think today we have the right balance 
between collateral damage and destruction to the enemy. And I 
will tell you, our threshold for collateral damage increases 
with the value of the target we are going after. And, you know, 
I can assure you, if we are going after Baghdadi's command and 
control network or some other critical node, then we will go 
after it as aggressively as necessary to make sure we are 
succeeding in the campaign.
    Ms. McSally. But it was also reported that we weren't 
striking the oil trucks because you didn't want to hurt the 
truck drivers and that we actually dropped leaflets on them to 
warn them before we hit them. If that is true, I just want to 
be clear, I mean, I have been involved in the targeting process 
at all levels, if you are driving a truck for a terrorist 
organization that is fueling them, you are a combatant. Can you 
just clarify what that is all about?
    General Dunford. Well, I think, Congresswoman, we did do 
that. We did because we assessed that the majority of the truck 
drivers were, in fact, just people trying to make a living in 
the region, a little bit different than an enemy combatant from 
our perspective.
    Ms. McSally. So you don't consider them combatants?
    General Dunford. We don't. What we are able to do is 
separate them from their vehicles and destroy the trucks, which 
is what we wanted to do.
    Ms. McSally. Okay. Last question is, is it your assessment, 
General Dunford, that the A-10 has been critical to the fight 
when it comes to these strikes, as reported with the AC-130, 
especially on the trucks, and also their combat search and 
rescue capability? Is it your assessment they are critical to 
this fight?
    General Dunford. The A-10 has been a valuable platform in 
the fight.
    Ms. McSally. Great. And do you consider this fight is going 
to go on for a while?
    General Dunford. I do.
    Ms. McSally. Great. Thank you.
    I yield back.
    The Chairman. Mr. Bridenstine.
    Mr. Bridenstine. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary, and thank you, General, for being 
here.
    I want to echo, I have a lot of the same concerns as my 
colleague, Ms. McSally, and certainly I was involved in the war 
in Iraq from the beginning, Operation Enduring Freedom. That 
was, of course, in Afghanistan, but then Southern Watch, and 
then Iraqi Freedom, ``shock and awe,'' all of those things.
    I would like to follow up on this question about the 
drivers of these trucks and the leaflets that were dropped. I 
presume the leaflets told them how to surrender. Is that 
correct? Because those were the leaflets that we dropped in 
Iraq the first time around.
    General Dunford. The leaflets--first of all, we did a 
couple of things. We dropped ordnance in the front of a column, 
in the back of a column, and then dropped leaflets that said if 
you don't get away from your vehicle, basically you are going 
to be bombed. And so that was the message that was sent.
    Mr. Bridenstine. So there was no effort to capture any of 
the truck drivers or get any kind of intelligence from their 
operation?
    General Dunford. We don't have any forces on the ground 
that could capture those truck drivers.
    Mr. Bridenstine. Is that a problem?
    General Dunford. Well, if you want to capture--Congressman, 
I am not trying to be flippant, but if you want to capture 
them, you would have to have someone on the ground to capture 
them and we don't.
    Mr. Bridenstine. Is it a problem that we don't have 
somebody on the ground to capture them?
    General Dunford. The lack of human intelligence inhibits 
our campaign, for sure.
    Mr. Bridenstine. I can image. So is that going to be part 
of what we do going forward, is try to--let me ask this, 
because I am just ignorant on this issue. How many ISIS 
combatants have we captured?
    General Dunford. I would have to get back to you, 
Congressman. I don't know.
    [The information referred to can be found in the Appendix 
on page 79.]
    Mr. Bridenstine. Is that not a very critical part of trying 
to win this war.
    General Dunford. It is, but we don't--I don't have a 
number.
    Mr. Bridenstine. Can you give me an estimate? Is it a 
couple of hundred, a couple thousand?
    General Dunford. It is probably a handful.
    Mr. Bridenstine. One or two?
    General Dunford. It is a handful.
    Mr. Bridenstine. A handful? Like five or less?
    General Dunford. Again, I would like to get back to you, 
Congressman, to talk about that. We have not been involved in 
combat operations, we, the United States. So we haven't been in 
a position to capture ISIL.
    Mr. Bridenstine. Now, on these----
    Secretary Carter. Can I just add something?
    Mr. Bridenstine. Sure.
    Secretary Carter. That one of the reasons for the 
expeditionary targeting force is precisely to gain 
intelligence, and one of the ways you do that is by capturing 
people. So I can tell you one person we captured, and that was 
the wife of Abu Sayyaf.
    Mr. Bridenstine. Where is she now?
    Secretary Carter. She is being detained.
    Mr. Bridenstine. By whom?
    Secretary Carter. By the Government of Iraq.
    Mr. Bridenstine. Of course. So what kind of intelligence 
are we getting now from that?
    Secretary Carter. We got considerable intelligence. I don't 
want to go into it any further.
    Mr. Bridenstine. And does that not demonstrate the value of 
human intelligence?
    Secretary Carter. Of course it does.
    Mr. Bridenstine. So is this something that we are going to 
change? Are we going to start capturing these folks?
    Secretary Carter. I just said one of the reasons for the 
expeditionary targeting force is precisely that, that is what I 
have said earlier, and I think it will be a very valuable 
source of intelligence. And as the Chairman said, that is 
critical to effective employment of air power, to the effective 
identification of forces that we can enable on the ground----
    Mr. Bridenstine. Let me ask you this. How long were these 
trucks--how long did we know about them before we destroyed 
them? Because The New York Times was reporting--actually it was 
the Treasury Department, I believe, that reported $10 million a 
month to fund ISIS through the smuggling of oil operations. Is 
that correct? $10 million a month. How long did we know that 
these trucks were being used to fund ISIS before we did 
anything about it?
    Secretary Carter. Well, we knew there were oil trucks in 
Iraq from the beginning, of course. What we could not do is 
distinguish those that were being directly used to finance 
ISIL. We now have the intelligence to do that, which allows us 
to effectively isolate them and target them. That is what we 
are trying to do. We are using the tactic, and we may change 
our tactics. We are using the tactics----
    Mr. Bridenstine. Let me ask you, the truck drivers that ran 
away, Mr. Secretary, the truck drivers that ran away because we 
told them to run away, where are they now? Are they now farmers 
in Syria? I am just asking the question because this is 
critically important to trying to win a war, which you are 
telling us we are trying to do.
    Secretary Carter. I am sorry. I am not understanding why--
--
    Mr. Bridenstine. The truck drivers.
    Secretary Carter [continuing]. Knowing what the truck 
drivers are doing now is essential to knowing how to win the 
war.
    Mr. Bridenstine. So the idea is that you believe these 
people did not know that they were involved in funding ISIS? 
That is what you are telling us?
    Secretary Carter. Well, they probably--if they didn't 
realize it before----
    Mr. Bridenstine. So they knew they were funding ISIS and 
they are not enemy combatants? Can you explain that?
    Secretary Carter. I think the Chairman already did. These 
were people who were making a buck, and so we gave them every 
opportunity to survive the strike.
    Mr. Bridenstine. Mr. Chairman, I am astonished. We need to 
learn more about why we didn't destroy these trucks a long time 
ago, where these enemy combatants are now, why we are dropping 
leaflets telling them to run away and not surrender. It is 
quite frankly astonishing if we are trying to win.
    The Chairman. I think that is a vote.
    Mr. Zinke, do you have a question right quick?
    Mr. Zinke. I do.
    And thank you, gentlemen, for your service and dedication. 
It is not easy.
    I guess I am somewhat concerned about, in my experience, 
about but putting forces on the ground, particularly the SF50 
[50 special forces operators]. And my concern is, is that 
whenever we put forces on the ground we want to make sure that 
we have adequate support for them, particularly medevac 
[medical evacuation]. My experience with northern Iraq, you 
can't rely on air all the time. So a ground QRF [quick reaction 
force] with some armor would be a good idea.
    Do you concur that having--I guess, General, for you--that 
having a sufficient force package would incorporate an in-
theater, in-country medevac, QRF, and force security?
    General Dunford. Congressman, I can assure you that the 
kind of package that you are referring to, that you are 
personally familiar with, is and will be in place.
    Mr. Zinke. Thank you.
    And I guess the last question is, I look at the threats. We 
have ISIS, Hezbollah, and Al Qaeda and North Korea and an 
emerging China and Russia. Mr. Secretary, where would you rack 
and stack global warming with that list?
    Secretary Carter. Well, I think when you think about 
strategy, you need to think about overall timeframes and 
overall of geography. And so you mentioned China, you mentioned 
Russia, they haven't been the subject of today's hearing. They 
were--I had the privilege of speaking before the Simi Valley 
conference that Chairman Thornberry organized, and my focus 
there was China and Russia, because we can't forget--and 
nuclear deterrence has been raised. There are lots of different 
aspects to this world. And one does need to think in the long 
term.
    And I think you asked about global warming or climate 
change as in a military threat. It does change some of our 
military conditions. We try to be a Department that looks 
ahead.
    Mr. Zinke. But would you agree----
    Secretary Carter. So we are looking ahead at the Arctic and 
that kind of thing and how it will change our operations.
    Mr. Zinke. But would you agree that the imminent threat, 
the imminent threat, the 5-yard, 5-meter threat, the most 
damaging threat facing us today would be ISIS, Al Qaeda, 
Hezbollah, and the non-nation-state terrorist activities?
    Secretary Carter. That is certainly the one that is the 
most imminent. They are trying to attack us right now. There is 
nothing distant in time or probability about it.
    Mr. Zinke. Thank you, Mr. Chairman.
    And thank you gentlemen for your service. And I greatly 
appreciate it. And God bless.
    The Chairman. Much more we could talk about, but you all 
have been very patient. Thank you for answering our questions. 
And I am just going to warn you, next time you all come up here 
we are probably going to--I am going to suggest to Mr. Smith we 
start on the bottom two rows with our questions, because I 
think some of the best questions come from our more junior 
members.
    With that, the hearing stands adjourned.
    [Whereupon, at 1:22 p.m., the committee was adjourned.]



      
=======================================================================




                            A P P E N D I X

                            December 1, 2015

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            December 1, 2015

=======================================================================

      

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
   

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                            December 1, 2015

=======================================================================

      

              RESPONSE TO QUESTION SUBMITTED BY MR. FORBES

    General Dunford. I have nothing more to contribute than what was 
said in the hearing.   [See page 17.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MRS. DAVIS
    General Dunford. We continue to work closely with Pakistan to 
address security issues of mutual interest and to seek support for our 
strategic objectives in the region. Our security assistance programs 
continue to improve Pakistan's capacity to combat terrorist 
organizations, while our engagement efforts at all levels reinforce our 
mutual goals for the region. High-level engagements such as the recent 
Defense Resourcing Conference in early March provide an opportunity for 
senior leaders from both sides to discuss concerns and determine the 
way ahead in our relationship. These forums provide key opportunities 
to communicate our expectations for Pakistan to address the threat from 
terrorist organizations. Pakistan recognizes the danger posed by these 
groups, and they have taken some positive steps forward in recent years 
to counter that threat. As Pakistan completes major military operations 
in the tribal areas, our countries have the opportunity to support 
future stability operations to improve security, education, and 
employment. Finally, we must continue to support the International 
Military Education and Training (IMET) program, which provides 
opportunities for Pakistani military personnel to learn about our 
culture and values and to develop lasting relationships with our own 
military leaders.   [See page 19.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MR. ROGERS
    General Dunford. Not at this time. The Long Range Standoff Weapon's 
(LRSO) Tech Maturation & Risk Reduction (TMRR) is fully funded for FY17 
and through the FYDP. Requested funding levels in PB17 ensure the LRSO 
replaces the ALCM according to current strategic plans.   [See page 
31.]
                                 ______
                                 
           RESPONSE TO QUESTION SUBMITTED BY MR. BRIDENSTINE
    General Dunford. U.S. forces captured one ISIS combatant prior to 
December 1, 2015. Since that time, U.S. forces have captured one 
additional ISIS combatant. Both detainees remained in U.S. custody for 
intelligence screening purposes prior to being transferred to the 
Government of Iraq for prosecution. In addition to U.S. unilateral 
captures, as of 25 March, our forces have enabled and facilitated 
Kurdish partners in the capture of 49 ISIS detainees who remain in 
Kurdish custody.   [See page 60.]



      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                            December 1, 2015

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. SHUSTER

    Mr. Shuster. The recent attacks in Paris demonstrate the Islamic 
State of Iraq and the Levant (ISIL) ability to carry out large-scale, 
coordinated attacks outside the Middle East making them a significant 
global threat. Evidence has shown that several of the Paris attackers 
previously traveled to Syria for training. The U.S. Special 
Presidential Envoy to the Global Coalition to Counter ISIL, Brett 
McGurk, stated in an interview on November 22, 2015, that the United 
States would work with local forces in northern Syria to close a 98-
kilometer border area along the Syria-Turkish border. Given the 
critical need to secure these areas, can you detail the level of U.S. 
involvement and forecasted timeline to secure the largest gap in 
Syria's border?
    Secretary Carter. [No answer was available at the time of 
printing.]
    Mr. Shuster. It has been estimated that 9 million Syrians have fled 
their homes since 2011. In your opinion, what are the top three 
objectives the U.S. must achieve in Syria to create an environment safe 
and stable enough to reverse this growing refugee crisis? What actions 
must be taken, regardless of agency, to obtain these objectives?
    Secretary Carter. [No answer was available at the time of 
printing.]
    Mr. Shuster. Many experts, and numerous former administration 
officials have expressed their concern that the current strategy and 
airstrikes in Syria are not achieving the goal of defeating ISIL. 
Former Secretary of Defense Leon Panetta said, ``I think that the 
resources applied to that mission, frankly, have not been sufficient.'' 
Dr. Michael G. Vickers, the former Under Secretary of Defense for 
Intelligence, writes, ``We conducted as many airstrikes in two months 
in Afghanistan in 2001 as we have in 16 months in Iraq and Syria.'' 
Even former Secretary of State Hillary Clinton has said we need ``a 
more effective coalition air campaign, with more allies' planes, more 
strikes, and a broader target set.'' Do you believe their criticisms 
are valid?
    Secretary Carter. [No answer was available at the time of 
printing.]
    Mr. Shuster. A short time before terrorists struck in Paris, 
President Obama said that ISIL has ``not gained ground in Iraq'' and 
that they had not established control of additional territory in Syria. 
Despite those statements, in May, ISIL captured the strategic city of 
Ramadi in Western Iraq and that same month, it also captured the Syrian 
city of Palmyra. ISIL continued to control wide swaths of strategic 
territory and has now demonstrated its ability to conduct attacks 
abroad like the one in Paris. General Dunford, do you believe we are 
winning the war against ISIL?
    General Dunford. Yes. We continue to make steady progress 
militarily in our efforts to degrade, dismantle, and ultimately defeat 
ISIL, as demonstrated by recent progress in Hit and Ramadi in Iraq and 
the Tishrin Dam and Shaddadi in Syria. As of May 3rd Iraqi Security 
Forces have retaken more than 45% of the territory in Iraq that ISIL 
held when the Coalition first began airstrikes in August 2014. The 
counter ISIL operations have restricted their freedom of movement along 
key communication and transportation routes in both Iraq and Syria. 
Furthermore, these activities have helped to secure key border 
crossings between Syria and Turkey, constraining ISIL's ability to send 
reinforcements and much needed supplies.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. HUNTER
    Mr. Hunter. Several organizations within the Department of Defense 
are seeking a handheld diagnostic device to bring lab-based molecular 
diagnostics into the field to serve the warfighter, which would bring 
lab-quality results to the Point of Need, at a fraction of the cost. 
It's my understanding that--among others--the Naval Health Research 
Center (NHRC), the Special Operations Command (SOCOM) and the Marines 
are currently seeking handheld diagnostic devices to address 
respiratory health, remote/battlefield warfighter healthcare, and 
biodefense. And I'm aware that Defense Threat Reduction Agency (DTRA) 
funded a 3-year contract with over $11 million of funding to deliver 
such a device. That contract has reached its initial end date without 
success. And DTRA recently extended that contract for an
additional 2 years. Further, private industry is currently developing 
such a Point of Need device. And there are proposals in front of DTRA 
to bring such devices into the field in 12 to 18 months.
    1. Why is DTRA continuing to invest in an expensive project that is 
not yielding positive results? 2. Why is DTRA not considering the 
adaptation of a currently viable technology to provide handheld Point 
of Need diagnostics to serve the warfighter? 3. While long-term 
research and development (R&D) is important to develop the technologies 
that will lead to future generations of products, why are we not 
supporting initiatives that can yield results in the near term, 
utilizing currently proven technologies and product platforms?
    Secretary Carter. [No answer was available at the time of 
printing.]
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. WALZ
    Mr. Walz. Mr. Secretary, what is this administration's vision for 
the future of Iraq and Syria? What is the specific outcome that is 
envisioned?
    Secretary Carter. [No answer was available at the time of 
printing.]
    Mr. Walz. How does this vision nest with the strategy for the 
region? For the globe?
    Secretary Carter. [No answer was available at the time of 
printing.]
    Mr. Walz. Tell me about coordination efforts with the Department of 
Defense, the State, Department, and other agencies. What are we doing 
well? What aren't we doing well? What help do you need from Congress?
    Secretary Carter. [No answer was available at the time of 
printing.]
    Mr. Walz. Have we too narrowly focused on counterterrorism at the 
expense of other methods for addressing threats to our interests in 
Syria and Iraq? What other policy objectives should the United States 
pursue?
    Secretary Carter. [No answer was available at the time of 
printing.]
    Mr. Walz. Mr. Secretary, is de facto partitioning of Syria and Iraq 
in our interest or that of our allies? Does U.S. policy and strategy 
assume de facto partitioning in these countries? Do you consider de 
facto partitioning of either Syria or Iraq avoidable?
    Secretary Carter. [No answer was available at the time of 
printing.]
    Mr. Walz. General Dunford, former senior governmental officials, 
Ambassador Ryan Crocker and Director John McLaughlin, have advocated 
for no-fly zones in Syria. What is the Administration's view on such a 
no-fly zone in Syria? Do you agree with Ambassador Crocker and Director 
McLaughlin that a no-fly zone in Syria would be appropriate at this 
time? What is the benefit of a no-fly zone or a safe zone, and what 
resources would be required to implement either of these?
    General Dunford. The Administration does not support establishing 
no-fly zones in Syria. I do not believe establishing a no-fly zone is 
appropriate at this time. Establishing a no-fly zone would divert 
Coalition resources away from defeating ISIL and would require a legal 
basis under domestic and international law, neither of which currently 
exist. In addition to requiring a significant number of aircraft to 
enforce, establishing no-fly or safe zones would require ground forces. 
We would be required to protect the zone from both violent extremists 
and Syrian forces, rockets, missiles and artillery. We likely would be 
required to provide humanitarian assistance and assist with governance. 
Forces committed to a zone could be required until the conflict ends 
and conditions are suitable for civilians to return to their homes.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. MOULTON
    Mr. Moulton. Mr. Chairman: In your testimony, you mentioned 
coordination between the State Department and Defense Department has 
increased since you became Chairman and there have been two meetings to 
coordinate political and military strategy. How frequently are such 
meetings planned to occur in the future? Are more frequent coordination 
meetings occurring at a working level? In your view, is this level of 
coordination sufficient to ensure military operations are well 
coordinated with political efforts?
    General Dunford. Yes, I believe the level of coordination is 
sufficient. My staff is in routine contact with the Department of 
State, as well as many of the other Departments and Agencies. My 
regional and functional staffs conduct planning and working-group 
sessions, from the action officer to the senior leader level, on a 
weekly basis. Furthermore, these working relationships extend beyond 
normally sched-
uled meetings into routine correspondence to properly coordinate 
political and military strategy as we focus on putting ISIL on a path 
to defeat.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. RUSSELL
    Mr. Russell. What is the comprehensive plan with regard to ISIL 
loss of territory in Syria? Has there been any discussion or 
consideration of zones of influence and governorship? As Russia is in 
the Alawite sphere, the United States in the Kurdish Sphere and Jordan 
in the Sunni-Arab sphere, what is the comprehensive plan to reduce ISIS 
in these areas of influence?
    Secretary Carter. [No answer was available at the time of 
printing.]
    Mr. Russell. What efforts are being made to unite a Sunni-Arab 
league to resolve the question of Sunni Arabs in Iraq and Syria for 
self-determination? Do you believe there can be any solutions without 
the prospect of Sunni-Arab self-determination?
    Secretary Carter. [No answer was available at the time of 
printing.]
    Mr. Russell. We've received reports from special operators and air 
forces that targeting approval can take weeks, causing once valuable 
intelligence to become useless. Why is this happening and what is the 
process for targeting approval? Is it true that plans are not 
``approved'' by the Secretary of Defense, merely ``endorsed,'' leaving 
the military forces the impression they are on their own should 
difficulty arise?
    Secretary Carter. [No answer was available at the time of 
printing.]
    Mr. Russell. With ISIL in Afghanistan, what measures are being 
taken to lift restriction on their targeting, currently hurdled by a 
force-protection only rules of engagement in that theater?
    Secretary Carter. [No answer was available at the time of 
printing.]
    Mr. Russell. What is the comprehensive plan with regard to ISIS 
loss of territory in Syria? Has there been any discussion or 
consideration of zones of influence and governorship? As Russia is in 
the Alawite sphere, the United States in the Kurdish Sphere and Jordan 
in the Sunni-Arab sphere, what is the comprehensive plan to reduce ISIS 
in these areas of influence?
    General Dunford. U.S. strategy to counter the Islamic State of Iraq 
and the Levant (ISIL) relies on capable and willing partnered ground 
forces to combat ISIL in both Iraq and Syria. The President has 
authorized U.S. Central Command to train and equip select individuals 
in key capabilities to better enable groups fighting ISIL in this 
region. Working by, with, and through indigenous counter-ISIL forces on 
the ground is a key component in our comprehensive plan to place ISIL 
on a path to defeat.
    Mr. Russell. What efforts are being made to make a Sunni-Arab, 
Sunni-Kurd coalition in Iraq? As the Kurds now have adequate arms, how 
will the Sunni-Arab tribesmen in the Tikrit/Allam to Bejii area are 
equip thousands given little to no support from anything sent to 
Bagdad?
    General Dunford. Our efforts in Iraq are designed to create Iraqi 
Security Forces that can defend Iraq on behalf of the Government of 
Iraq. Accounting for the ethnic and sectarian makeup of the force is 
but one component of this effort. Iraq's Popular Mobilization (PMF) 
Program has created Iraqi formations that represent the sectarian 
makeup of the areas from which they are recruited. The Government of 
Iraq continues to fund, train, and equip these forces, and has expanded 
its outreach in the majority Sunni Anbar and Ninawa Provinces. A Sunni 
PMF has been recruited from Sunni Arab tribes, and the Iraqi Government 
has fully supported the effort. U.S. and Coalition forces are training, 
equipping, and providing operational advice to both the GOI and to the 
Sunni PMF in support of this effort.
    Mr. Russell. What efforts are being made to unite a Sunni-Arab 
league to resolve the question of Sunni Arabs in Iraq and Syria for 
self-determination? Do you believe there can be any solutions without 
the prospect of Sunni-Arab self-determination?
    General Dunford. The C-ISIL Coalition includes several Sunni Arab 
partners; their contributions to the Coalition are invaluable. We have 
not made any additional effort to unite a Sunni-Arab league to resolve 
the question of Sunni self-determination. The military dimension of our 
C-ISIL strategy supports creating sovereign, inclusive and 
representative governance in both Iraq and Syria. Including Sunni Arabs 
in the governments of Iraq and Syria will be required to prevent the 
grievances that helped spawn ISIL from recurring.
    The Kingdom of Saudi Arabia has organized an Islamic coalition of 
41 Sunni nations to counter Sunni extremism. This effort includes 
religious and cultural compo-
nents best addressed by Sunni authorities. Coalition and Saudi planners 
are working to ensure Saudi efforts complement those of the C-ISIL 
coalition
    Mr. Russell. We've received reports from special operators and air 
forces that targeting approval can take weeks, causing once valuable 
intelligence to become useless. Why is this happening and what is the 
process for targeting approval? Is it true that plans are not 
``approved'' by the Secretary of Defense, merely ``endorsed,'' leaving 
the military forces the impression they are on their own should 
difficulty arise?
    General Dunford. The Secretary of Defense has given full authority 
to CDRUSCENTCOM to conduct military operations against ISIL forces. 
Authority to conduct operations has been delegated to subordinate 
commanders to decrease the timeline for approval. Many factors impact 
the targeting process to include the need for positive identification, 
the risk to friendly and non-combatant personnel and infrastructure, 
and synchronization requirements with ongoing tactical, operational and 
strategic activity. The main factor is risk management. When 
CDRUSCENTCOM determines the level of risk associated with a specific 
strike rises to a given threshold, he may elect to seek higher echelon 
approval for the execution of that strike.
    Mr. Russell. With ISIL in Afghanistan, what measures are being 
taken to lift restriction on their targeting, currently hurdled by a 
force-protection only rules of engagement in that theater?
    General Dunford. U.S. forces may take action against any 
individuals or groups who pose a threat to U.S. or coalition forces in 
Afghanistan. Those authorities include actions against all groups 
associated with ISIL, to include the Islamic State-Khorasan Province 
(ISKP). Commander, U.S. Forces-Afghanistan will continue to assess the 
sufficiency of his authorities and will request new or expanded 
authorities through the chain of command when he determines they are 
necessary.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. JOHNSON
    Mr. Johnson. In the interest of ensuring every nation is bearing 
their share of the costs and responsibilities in defeating the Islamic 
State of Iraq and the Levant (ISIL), what unique capabilities do our 
allies and regional partners have and how can we best enable those 
capabilities?
    Secretary Carter. [No answer was available at the time of 
printing.]
    Mr. Johnson. What are we doing to ensure any Russian action does 
not detract from our aims in a post-ISIS Syria and Iraq but rather 
complements our own objectives?
    Secretary Carter. [No answer was available at the time of 
printing.]
    Mr. Johnson. Do you believe as Secretary of Defense that we have 
adequate human intelligence in the region? What can we do to improve 
it?
    Secretary Carter. [No answer was available at the time of 
printing.]
    Mr. Johnson. In the interest of ensuring every nation is bearing 
their share of the costs and responsibilities in defeating ISIS, what 
unique capabilities do our allies and regional partners have and how 
can we best enable those capabilities?
    General Dunford. Following a deliberate engagement plan by 
Secretary Carter and Secretary Kerry, our partners are contributing 
nearly half of the forces in Iraq and Syria and their commitments and 
contributions continue to grow. USCENTCOM has developed a strategy to 
better utilize partner contributions, which includes partners taking on 
key leadership roles at locations such as Erbil and Al Asad. The DoD, 
in partnership with the State Department, has developed a comprehensive 
engagement strategy to support USCENTCOMs initiative.
    Mr. Johnson. It was recently reported that the Libyan port city of 
Sirte has been transformed from a minor outpost to an ``actively 
managed colony of the central Islamic State, crowded with foreign 
fighters from around the region.'' There have also been reports of ISIS 
attacks in Bangladesh. How extensive is ISIS' control in Libya and have 
you seen evidence of attempts at aggressive expansion beyond the 
immediate region?
    General Dunford. [The information referred to is classified and 
retained in the committee files.]
    Mr. Johnson. What are we doing to ensure any Russian action does 
not detract from our aims in a post-ISIS Syria and Iraq but rather 
complements our own objectives?
    General Dunford. Since 2012, the U.S. and Russia have been part of 
a United Nations effort to bring peace to Syria. The U.S. and Russia 
co-chair two task forces under the UN's International Syria Support 
Group (ISSG)--a Ceasefire Task Force and a Humanitarian Task Force. 
Through these task forces, in bilateral sessions of the task force co-
chairs, and in multilateral forums with regional and international 
partners, we engage Russia. These engagements provide opportunities to 
ensure Russian actions complement the objectives for a post-ISIL Syria. 
In Iraq, the U.S. works by, with, and through the Iraqi government on 
issues of significance to our two countries; Russia has its own 
diplomatic channel with the Government of Iraq.

                                  [all]
</pre></body></html>
